<html>
<title> - AMERICA'S BLACK COLLEGES AND UNIVERSITIES: MODELS OF EXCELLENCE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]







                      AMERICA'S BLACK COLLEGES AND
                   UNIVERSITIES: MODELS OF EXCELLENCE
                     AND CHALLENGES FOR THE FUTURE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 13, 2008

                               __________

                           Serial No. 110-83

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                                  -----

                     U.S. GOVERNMENT PRINTING OFFICE

41-042 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001













                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director



























                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 13, 2008...................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    52
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     5
        Prepared statement of....................................     6
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     4

Statement of Witnesses:
    O'Leary, Hazel, president, Fisk University...................    10
        Prepared statement of....................................    11
    Pierce, Raymond C., dean and professor of law, North Carolina 
      Central University School of Law...........................    31
        Prepared statement of....................................    33
        Additional submissions:
            Report prepared for the National Associational for 
              Equal Opportunity in Higher Education..............    36
            Citation: The NAFEO 33rd Annual National Conference 
              on Blacks in Higher Education report...............    39
    Richardson, Dr. Earl S., president, Morgan State University..    25
        Prepared statement of....................................    27
        Questions and responses submitted for the record.........    52
    Sias, Mary Evans, Ph.D., president, Kentucky State University    21
        Prepared statement of....................................    23
    Yancy, Dr. Dorothy Cowser, president, Johnson C. Smith 
      University.................................................    14
        Prepared statement of....................................    17
        Questions and responses submitted for the record.........    55

























 
                      AMERICA'S BLACK COLLEGES AND
                   UNIVERSITIES: MODELS OF EXCELLENCE



                     AND CHALLENGES FOR THE FUTURE

                              ----------                              


                        Thursday, March 13, 2008

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:04 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Andrews, 
Scott, Hinojosa, McCarthy, Kucinich, Wu, Davis of California, 
Davis of Illinois, Bishop of New York, Sarbanes, Yarmuth, Hare, 
Clarke, McKeon, Petri, Ehlers, Keller, and Walberg.
    Staff present: Tylease Alli, Hearing Clerk; Fran-Victoria 
Cox, Staff Attorney; Denise Forte, Director of Education 
Policy; Gabriella Gomez, Senior Education Policy Advisor 
(Higher Education); David Hartzler, Systems Administrator; 
Lloyd Horwich, Policy Advisor for Subcommittee on Early 
Childhood, Elementary and Secondary Education; Lamont Ivey, 
Staff Assistant, Education; Ann-Frances Lambert, Administrative 
Assistant to Director of Education Policy; Danielle Lee, Press/
Outreach Assistant; Ricardo Martinez, Policy Advisor for 
Subcommittee on Higher Education, Lifelong Learning and 
Competitiveness; Stephanie Moore, General Counsel; Alex Nock, 
Deputy Staff Director; Joe Novotny, Chief Clerk; Rachel 
Racusen, Deputy Communications Director; Julie Radocchia, 
Education Policy Advisor; Dray Thorne, Senior Systems 
Administrator; Margaret Young, Staff Assistant, Education; Mark 
Zuckerman, Staff Director; Stephanie Arras, Minority 
Legislative Assistant; James Bergeron, Minority Deputy Director 
of Education and Human Services Policy; Robert Borden, Minority 
General Counsel; Amy Raaf Jones, Minority Professional Staff 
Member; Alexa Marrero, Minority Communications Director; Susan 
Ross, Minority Director of Education and Human Resources 
Policy; and Linda Stevens, Minority Chief Clerk/Assistant to 
the General Counsel.
    Chairman Miller [presiding]. Good morning and welcome. The 
Committee on Education and Labor will come together for the 
purpose of conducting a hearing on America's Black Colleges and 
Universities: Models of Excellence and Challenges for the 
Future.
    Just one second. I am trying to learn what our schedule is. 
We have a vote?
    We have had a ceremony in the Rotunda, a moment of 
remembrance, for the fifth anniversary of the hostilities in 
Iraq and Afghanistan, and so more members will be coming. I 
think it is best that we get started because we also have had 
some fairly contentious days on the floor of the House of 
Representatives over the last couple of days. So we will try to 
weave all of this in with our schedule.
    But thank you so much in advance for being here today and 
for the testimony that we will receive.
    One of the primary focuses of this committee has been to 
make college more affordable and accessible so that every 
qualified student has the opportunity to go to college. We 
began last year by enacting a $20 billion increase in 
additional federal college aid over the next 5 years.
    In addition to providing low-and middle-income students 
with much-needed financial relief to help pay for college, this 
new law also makes historic investments of more than a half-
billion dollars in historically black colleges and universities 
and Hispanic-serving institutions and other minority-serving 
schools.
    HBCUs provide critical higher education opportunities for 
African-American, low-income, and educationally disadvantaged 
Americans. Historically, historically black colleges and 
universities have played an especially significant role in 
opening the doors of college to African-American students. 
During times of slavery and segregation, the HBCUs were the 
only institutions that would admit African-American students.
    Today, these colleges and universities are playing an 
increasing role in helping students succeed in college and 
strengthening our workforce and our economy. The National 
Association for Equal Opportunity in Higher Education released 
a new report just today showing the significant strides that 
black colleges are making to increase access to higher 
education and to boost our nation's global competitiveness.
    In 1994, slightly fewer than one million African-American 
students were enrolled in either 2-year or 4-year undergraduate 
institutions, making up just over 9 percent of all college 
students. By 2004, the number of African-American students 
enrolled had more than doubled, so that they comprised about 13 
percent of all college students. Over the past decade, 
enrollment rates at historically black colleges and 
universities have grown at a much faster rate than enrollment 
rates of all college students.
    Although historically black colleges and universities 
represent only 3 percent of all colleges and universities, they 
enroll close to a third of all African-American students. They 
serve a disproportionate number of all African-American 
students pursuing careers that are critical to the 
competitiveness of this nation. Forty percent of their students 
pursue a 4-year degree in science, technology, engineering, or 
math, and about half of all African-Americans students in 
teaching fields have attended HBCUs.
    But despite this progress, these institutions continue to 
face a unique set of challenges, including limited resources 
and budgets. The historically black colleges and universities 
tend to have smaller endowments than other comparable 
institutions. Another recent study by the National Association 
for Equal Opportunity in Higher Education found that during the 
2004-2005 school year not a single historically black college 
and university ranked among the top 120 endowments in the 
country.
    Sadly, President Bush's recently released fiscal year 2009 
budget proposes harmful cuts to the funding for historically 
black colleges and universities and other minority-serving 
schools, which would only worsen the financial challenges that 
these schools face.
    In addition, many historically black colleges and 
universities are in significant need of repair and renovation, 
especially those that are still feeling the devastating effects 
of Hurricane Katrina. And some disparities still persist 
between students attending historically black colleges and 
universities and students at other comparable schools--part of 
the reason the Office of Civil Rights in the Department of 
Education has pursued a compact agreement with several states 
to root out the discrimination that minority students face.
    Clearly, there remains a great deal of work ahead to ensure 
that students at historically black colleges and universities 
and other minority-serving schools have the same opportunity as 
students at other colleges. I am pleased to say that this 
Congress and this committee have taken some important steps to 
address these changes.
    In addition to our newly passed student aid law, the House 
also recently passed the College Opportunity and Affordability 
Act, H.R. 4137, which increases the amount of funding 
historically black colleges and universities would receive for 
capital projects and repairs. It also expands funding 
eligibility for graduate student programs at HBCUs and other 
minority-serving institutions and addresses the challenges of 
starting and growing endowments at these schools.
    Today, we will examine the tremendous accomplishments of 
private and public historically black colleges and universities 
and learn more about the obstacles they continue to face. We 
will also hear more about the purpose of the compact agreements 
and whether or not the Office of Civil Rights is doing enough 
to protect the interests of students attending historically 
black colleges and universities.
    I want to thank our witnesses for joining us today, many of 
whom are in town for the National Association for Equal 
Opportunity in Higher Education's annual conference. Providing 
all Americans with equal educational opportunities is at the 
center of our nation's civil rights history and its shared 
values. It is a core part of our efforts to give everyone a 
chance to pursue the American dream.
    At this time, I would like to recognize the senior 
Republican on the Education and Labor Committee, Congressman 
McKeon, my colleague from California who has been working for 
many years, while he was in the majority and now in the 
minority, to push this committee to report and the Congress to 
reauthorize the Higher Education Act, and we are now in 
conference, through a great deal of his work and all the 
members of this committee, and I want to recognize him for his 
opening remarks.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good morning. Welcome to our hearing on ``America's Black Colleges 
and Universities: Models of Excellence and Challenges for the Future.''
    One of the primary focuses of this Committee has been to make 
college more affordable and accessible, so that every qualified student 
has the opportunity to go to college.
    We began last year by enacting a $20 billion increase in additional 
federal college aid over the next five years.
    In addition to providing low-and middle-income students with some 
much-needed financial relief when paying for college, this new law also 
makes an historic investment of more than a half billion dollars in 
Historically Black Colleges and Universities, Hispanic-Serving 
Institutions, and other minority-serving schools.
    HBCUs provide critical higher education opportunities for African-
American, low-income, and educationally disadvantaged Americans. 
Historically, HBCUs have played an especially significant role in 
opening the doors of college to African-American students. During times 
of slavery and segregation, HBCUs were the only institutions that would 
admit African-American students.
    Today, these colleges and universities are playing an increasing 
role in helping students succeed in college and in strengthening our 
workforce. The National Association for Equal Opportunity in Higher 
Education released a new report just today showing the significant 
strides that black colleges are making to increase access to higher 
education and to boost our nation's global competitiveness.
    In 1994, slightly fewer than one million African-American students 
were enrolled at either two-year or four-year undergraduate 
institutions--making up just over nine percent of all college students. 
By 2004, African-American student enrollment had more than doubled--
comprising about 13 percent of all college students.
    Over the past decade, enrollment rates at HBCUs have grown at a 
much faster rate than enrollment rates among all college students.
    Although HBCUs represent only three percent of all colleges and 
universities, they enroll close to a third of all African-American 
students. They serve a disproportionate number of all African-American 
students pursuing careers that are critical to our competitiveness: 
Forty percent of their students pursue four-year degrees in science, 
technology, engineering and math, and about half of all African-
Americans students in teaching fields attend HBCUs.
    But despite this progress, these institutions continue to face a 
unique set of challenges, including limited resources and budgets. 
HBCUs tend to have smaller endowments than other comparable 
institutions. Another recent study by the National Association for 
Equal Opportunity in Higher Education found that, during the 2004-2005 
school year, not a single HBCU ranked among the top 120 endowments in 
the country.
    Sadly, President Bush's recently released fiscal year 2009 budget 
proposes harmful cuts in funding for HBCUs and other minority serving 
schools, which would only worsen the financial challenges these schools 
face.
    In addition, many HBCUs are in significant need of repair and 
renovation, especially those that are still feeling the devastating 
effects of Hurricane Katrina.
    And some disparities still persist between students attending HBCUs 
and students at other comparable schools--part of the reason the Office 
of Civil Rights in the Department of Education has pursued compact 
agreements with several states to root out discrimination that minority 
students may face.
    Clearly, there remains a great deal of work ahead to ensure that 
students at HBCUs and other minority serving schools have the same 
opportunities as students at other colleges.
    I am pleased to say that this Congress and this Committee have 
taken some important steps to address these challenges. In addition to 
our newly passed student aid law, the House also recently passed the 
College Opportunity and Affordability Act, H.R. 4137, which increases 
the amount of funding HBCUs could receive for capital projects, such as 
repairs.
    It also expands funding eligibility for graduate student programs 
at HBCUs and other minority serving institutions and addresses the 
challenges of starting and growing endowments at these schools.
    Today, we will examine the tremendous accomplishments of private 
and public HBCUs and learn more about the obstacles they continue to 
face. We will also hear more about the purpose of compact agreements--
and whether or not the Office of Civil Rights is doing enough to 
protect the interests of students attending HBCUs.
    I want to thank our witnesses for joining us today, many of whom 
are in town for the National Association for Equal Opportunity in 
Higher Education's annual conference.
    Providing all Americans with equal educational opportunities is at 
the center of our nation's civil rights history and shared values. It's 
a core part of our efforts to give everyone the chance to pursue the 
American Dream.
    Thank you.
                                 ______
                                 
    Mr. McKeon. Thank you, Chairman Miller, and thank you for 
those kind words, and it is good to be working with you again 
this morning here.
    I am pleased to have the opportunity to discuss the great 
value of historically black colleges and universities and what 
an important role they play in the post-secondary education 
environment. As with any institutional policy, HBCUs certainly 
face challenges, but that must not sidetrack us from 
recognizing the incredible void that was filled when 
historically black colleges were included and defined in the 
Higher Education Act.
    Traditionally, HBCUs have provided diverse and 
distinguished institutions of post-secondary learning for 
African-Americans, with as many as 14 percent of all African-
American students currently enrolled in such institutions 
nationwide. Today, we also find HBCUs have expanded in scope 
and depth and include young people from all races at over 100 
different 2-and 4-year public-private institutions across the 
nation.
    Historically black colleges and universities serve some of 
our most disadvantaged students, who in some cases would not 
have had the opportunity to earn a degree and benefit from the 
enriching experiences of higher education. Therefore, the 
contributions made by HBCUs deserve our recognition.
    In many cases, HBCUs do not have access to the resources or 
endowment income of other colleges and universities; and yet, 
they continue to provide a quality education to some of the 
neediest students in the country. Over the years, Congress has 
worked to improve the nation's support for historically black 
colleges and universities. Many of these institutions and their 
students rely on federal grant and loan programs.
    Under the Higher Education Amendments of 1998, Congress 
made significant improvements to programs designed to aid HBCUs 
in strengthening their institutions and graduate and 
professional programs. Changes allowed institutions to use 
federal money to build their endowments and to provide 
scholarships and fellowships for disadvantaged graduate and 
professional students. Title III of the Higher Education Act, 
which Congress is in the midst of reauthorizing, provides HBCUs 
with additional funds.
    Between 1995 and 2008, congressional funding for the 
Strengthening Historically Black Colleges and Universities 
Program rose from $109 million to $238 million, a 118 percent 
increase over the last 13 years. Additionally, funding for the 
HBCU graduate program increased from $19.6 million to $56.9 
million this year, an increase of 190 percent.
    HBCUs--and all traditional colleges and universities, for 
that matter--continue to face the challenge of the skyrocketing 
cost of a college education. Some colleges and universities 
have taken steps to hold down costs by exercising greater 
administrative efficiency and embracing innovative approaches, 
such as giving students the option of renting textbooks, a 
small step that can save students hundreds of dollars each 
year. This is a subject I have addressed aggressively over the 
last decade because I believe all post-secondary institutions 
should provide greater transparency of how and where student 
tuition dollars are being spent.
    It is my understanding that today's hearing is also 
intended to examine the implementation of desegregation 
agreements, which were put into place to erase remaining 
vestiges of discrimination in our nation's past. Given the 
importance of this topic, I am surprised that we will not hear 
directly from one of the states that have worked to wipe out 
discrimination in their higher education system. After all, it 
is the states that entered into these agreements and the states 
that bear responsibility for fairly and fully promoting 
equality in their post-secondary systems.
    I am pleased to have this distinguished panel of witnesses 
here before us, and I am interested to hear how some of the 
nation's HBCUs are addressing the college cost issue, issues of 
college access, and other challenges in a competitive 21st 
century economy.
    Thanks to each of you for being here today. The work you 
are doing for our more disadvantaged students is to be 
commended. HBCUs provide a remarkable avenue for African-
American young people--and all young people--to gain a quality 
education and are a source of pride for their communities and 
our nation.
    Chairman Miller, we share the same desire of seeing our 
nation's students gain greater access to a college education, 
so I thank you for dedicating this time to examining the 
historically black colleges and universities.
    And I yield back.
    [The statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you Chairman Miller. I'm pleased to have the opportunity to 
discuss the great value of Historically Black Colleges and Universities 
and what an important role they play in the postsecondary education 
environment. As with any institution or policy, HBCUs certainly face 
challenges, but that must not sidetrack us from recognizing the 
incredible void that was filled when historically black colleges were 
included and defined in the Higher Education Act.
    Traditionally, HBCUs have provided diverse and distinguished 
institutions of postsecondary learning for African-Americans, with as 
many as 14 percent of all African-American students currently enrolled 
in such institutions nationwide. Today, we also find HBCUs have 
expanded in scope and depth to include young people from all races at 
over 100 different two- and four-year, public and private institutions 
across the nation.
    Historically Black Colleges and Universities serve some of our most 
disadvantaged students, who in some cases would not have had the 
opportunity to earn a degree and benefit from the enriching experiences 
of higher education. Therefore, the contributions made by HBCUs deserve 
our recognition.
    In many cases, HBCUs do not have access to the resources or 
endowment income of other colleges and universities; and yet, they 
continue to provide a quality education to an underserved demographic.
    Over the years, Congress has worked to improve the nation's support 
for Historically Black Colleges and Universities. Many of these 
institutions and their students rely on federal grant and loan 
programs.
    Under the Higher Education Amendments of 1998, Congress made 
significant improvements to programs designed to aid HBCUs in 
strengthening their institutions and graduate and professional 
programs. Changes allowed institutions to use federal money to build 
their endowments, and to provide scholarships and fellowships for 
disadvantaged graduate and professional students. Title III of the 
Higher Education Act, which Congress is in the midst of reauthorizing, 
provides HBCUs with additional funds.
    Between 1995 and 2008 Congressional funding for the Strengthening 
Historically Black Colleges and Universities Program rose from $109 
million to $238 million--a 118 percent increase over the last 13 years. 
Additionally, funding for the HBCU Graduate program increased from 
$19.6 million to $56.9 million this year--an increase of 190 percent.
    HBCUs--and all traditional colleges and universities for that 
matter--continue to face the challenge of the skyrocketing cost of a 
college education. Some colleges and universities have taken steps to 
hold down costs by exercising greater administrative efficiency and 
embracing innovative approaches such as giving students the option to 
rent textbooks, a small step that can save students hundreds of dollars 
each year.
    This is a subject I have addressed aggressively over the last 
decade, because I believe all postsecondary institutions should provide 
greater transparency of how and where student tuition dollars are being 
spent.
    It is my understanding that today's hearing is also intended to 
examine the implementation of desegregation agreements, which were put 
into place to erase remaining vestiges of discrimination in our 
nation's past. Given the importance of this topic, I am surprised that 
we will not hear directly from one of the states that have worked to 
wipe out discrimination in their higher education system. After all, it 
is the states that entered into these agreements, and the states that 
bear responsibility for fairly and fully promoting equality in their 
postsecondary systems.
    I'm pleased to have this distinguished panel of witnesses here 
before us, and I'm interested to hear how some of the nation's HBCUs 
are addressing the college cost issue, issues of college access, and 
other challenges in a competitive 21st century economy.
    Thank each of you for being here today. The work you are doing for 
our more disadvantaged students is to be commended. HBCUs provide a 
remarkable avenue for African-American young people, and all young 
people, to gain a quality education and are a source of pride for their 
communities and our nation.
    Chairman Miller, we share the same desire of seeing our nation's 
students gain greater access to a college education, so I thank you for 
dedicating this time to examining Historically Black Colleges and 
Universities. I yield back.
                                 ______
                                 
    Chairman Miller. I thank the gentleman for his remarks.
    And all members will have the opportunity to enter opening 
remarks into the record of this hearing.
    Mr. Scott. Mr. Chairman?
    Chairman Miller. This will not be the----
    Mr. Scott. Mr. Chairman?
    Chairman Miller. Just one second, Bobby.
    This will not be the last that we hear about the compacts, 
but we had the opportunity today to have these magnificent 
leaders in town all at one time, and we thought we would take 
advantage of it. So I want to just respond to what was said.
    Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, this is an extremely important hearing, but I 
want to express the reason why I will have to leave in a few 
minutes. The Congressional Black Caucus budget is on the floor 
in 15 minutes, and I think the panelists would rather me be on 
the floor trying to get some more money than being at the 
hearing. So I thank you for allowing me to make that comment.
    Chairman Miller. So you think they are that pragmatic just 
about budgets? [Laughter.]
    Mr. Payne?
    Mr. Payne. I, too, will have to leave at 10:30. I chair the 
Subcommittee on Africa and Global Health, and we are having a 
hearing today on child survival, reducing child mortality 
around the world. So, unfortunately, I, too, will have to leave 
at 10:30. But----
    Mr. Andrews. Where are your priorities?
    Mr. Payne. I am telling you. But I really look forward to 
reading the testimony, and we will do all we can to assist you. 
Thank you very much.
    Chairman Miller. Thank you.
    We have a magnificent panel, and we are going to begin with 
the Honorable Hazel O'Leary who is president of Fisk 
University. President O'Leary has been the head of Fisk 
University since 2004.
    President O'Leary has most recently served as president of 
the international energy consulting firm O'Leary & Associates 
that she founded in 1997 to focus on issues of corporate 
change, leadership, and arms control. She also served as 
president and chief operating officer of Blaylock & Partners, a 
top-ranked African-American investment banking firm in New 
York.
    During the first administration of President Bill Clinton, 
President O'Leary served as the U.S. Secretary of Energy where 
she did some great groundbreaking work.
    And thank you, Madam Secretary and President, all these 
things. My gosh.
    Dr. Dorothy Yancy is president of Johnson C. Smith 
University in Charlotte, North Carolina. Dr. Dorothy Yancy is 
president of the Johnson C. Smith University and first came to 
the university as a student and then returned in 1994 to serve 
as the first woman appointed to that position. Previously, Dr. 
Yancy served as professor at the Georgia Institute of 
Technology for 22 years.
    She holds a bachelor of arts degree in history and social 
science from Johnson C. Smith University, a master of arts 
degree in history from the University of Massachusetts-Amherst, 
and a Ph.D. in political science from Atlanta University.
    Raymond Pierce is the dean of North Carolina Central Law 
School in Durham, North Carolina. Dean Pierce became dean of 
North Carolina Central Law School in 2005, and prior to serving 
dean of the law school, Mr. Pierce was a partner in the 
national firm of Baker & Hostetler from 1993 to 2000. Mr. 
Pierce served as President Bill Clinton's Deputy Assistant 
Secretary for Civil Rights at the U.S. Department of Education 
where he managed the enforcement of civil rights laws in 
education and the development of federal civil rights education 
policy.
    I think Mr. Sarbanes is going to----
    Mr. Sarbanes?
    Mr. Yarmuth. Mr. Chairman?
    Chairman Miller. Or Mr. Yarmuth. Excuse me. Mr. Yarmuth is 
going to do the next introduction.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    I have the great honor of introducing a fellow Kentuckian 
and a very distinguished one who has dedicated her life to 
higher education. She is in her fifth year of a very successful 
term of service as president of Kentucky State University in 
Frankfurt, coming to us after an 8-year tenure at the 
University of Texas at Dallas.
    She has more initials after her name than in it, with a 
bachelor's degree from Tougaloo College and master's and Ph.D. 
from University of Wisconsin-Madison, all in sociology, and an 
MBA from Abilene Christian College in Dallas.
    To accompany all those degrees is an equally impressive 
list of honors, including the Women of Excellence Award, Texas 
Women of Distinction Award, the Outstanding Texan Award 
presented by the Texas Legislative Black Caucus. She was also 
awarded the Ford Foundation's Doctoral Fellowship for Black 
Americans and the National Institute of Mental Health 
Fellowship in Societal Change and Human Development.
    But nothing on her resume can truly reflect the passion and 
the commitment and the character of someone whom I consider a 
friend and who has done an incredible job at Kentucky State, 
Dr. Mary Sias.
    Welcome.
    Chairman Miller. Mr. Sarbanes will make the next 
introduction.
    Mr. Sarbanes. Thank you, Mr. Chairman, and thanks for 
holding this hearing on historically black colleges and 
universities.
    I am pleased to introduce Dr. Earl Stanford Richardson who 
is the 11th present of Morgan State University in Baltimore. A 
native of Maryland, Dr. Richardson earned the bachelor of arts 
degree in social science from the University of Maryland-
Eastern Shore and the master's of science and doctor of 
education degrees from the University of Pennsylvania. He has 
been a fellow of the Ford Foundation and the Kellogg Foundation 
and has conducted extensive research on critical problems in 
higher education relevant to racial autonomy, desegregation, 
and integration.
    Since becoming president of Morgan State University, Dr. 
Richardson has fashioned an all-encompassing strategy for 
strengthening academic programs and stabilizing student 
enrollment, and Morgan now leads Maryland colleges and 
universities in the overall production of African-American 
baccalaureates and in the number of undergraduates in 
mathematics, science, and engineering.
    The lodestar of Dr. Richardson's leadership at Morgan State 
University and in higher education is his commitment to 
establishing a strong foundation of excellence and achievement 
in the African-American community.
    I just want to say I have had the opportunity to talk at 
some length with Dr. Richardson about the challenges that face 
historically black colleges and universities. He is a creative 
thinker and, I think, brings an important perspective to the 
discussion today.
    Welcome.
    Chairman Miller. Thank you very much.
    And, again, welcome to all of you.
    Secretary O'Leary, we are going to begin with you. You will 
have 5 minutes to make your case, and the green light will go 
on when you begin to speak, a yellow light when you have about 
a minute to wrap up, but we expect you to complete your 
thoughts in good, clear sentences, and then a red light will 
come on. [Laughter.]
    Mr. Scott. Mr. Chairman?
    Ms. O'Leary. Such a challenge, Mr. Chairman.
    Chairman Miller. Excuse me.
    Mr. Scott. Mr. Chairman, before she starts----
    Chairman Miller. Mr. Scott?
    Mr. Scott [continuing]. You did not call on me in time to 
introduce her, but Secretary O'Leary is from Newport News, 
Virginia, and we would like to especially welcome her.
    Chairman Miller. And we all know Mr. Scott is from Newport 
News, Virginia.
    Ms. O'Leary. Surely we do.
    Chairman Miller. Welcome.

     STATEMENT OF HAZEL O'LEARY, PRESIDENT, FISK UNIVERSITY

    Ms. O'Leary. Thank you, Mr. Chairman and members of the 
committee.
    The chairman has touched upon it. That is I have so little 
time and so much to say.
    I brought a picture, but only you can see it. This is my 
favorite picture of Fisk University. It is a graduation with 
the young people wearing the cloth traditional of Ghana, and 
that is a good place to begin with Fisk University.
    We are proud to report that our retention rate is at 86 
percent, meaning our freshman getting to the sophomore year, 
and there we can hold them, except for financial crises. Our 
graduation rate is at 65 percent, ranking us 10 percent ahead 
of the graduation rate of all majority schools in the United 
States of America.
    We have been recognized by the Chronicle of Higher 
Education for doing the best job of graduating low-income, 
first-generation students, but perhaps more importantly, as my 
students would want me to tell you, we hook them up, and by 
hooking them up, I mean, they go on to graduate schools or they 
go right into the world of work. Some 70 percent of the 
students at Fisk University enter a graduate program.
    We like to talk about some of our peoples in academia. Fisk 
University holds the distinction of producing the largest 
number of African-Americans who go on to earn a Ph.D. in the 
natural sciences. That is stunning because normally our 
population of students is at about 900. We are on track in the 
next year to take that title with respect to physics graduates 
with Ph.Ds. I can point out to you that this year 15 African-
Americans entered a Ph.D. program in physics. Nine of them were 
graduates of Fisk University.
    That is the good work we are doing.
    We are very proud of our academic excellence. For 16 years 
in a row, the Princeton Review has rated Fisk University in the 
85th percentile of quality in education among colleges and 
universities in America. Recently, the U.S. News & World Report 
did a survey of historically black colleges and universities, 
86 of them. Fisk ranked number five. Now, maybe 10 years ago or 
20 years ago, we would have ranked number one, but it is 
important to tell you that we have managed to do this with an 
endowment of $7 million.
    Now, if that were the good face of Fisk, there is a face of 
Fisk that needs to be getting a little more makeup, as it were. 
We are very blessed this year to have caught the attention of 
the Andrew W. Mellon Foundation, recognizing that Fisk needs 
very quickly to build their endowment. They have given us $1 
million outright and set a challenge to give us another $2 
million if Fisk can raise $4 million by the 30th of June. I am 
happy and proud to tell you that we are approaching the $2 
million mark, and my suitcase is packed all the time so I know 
we are going to get there.
    I want to go now to the heart of our problems, recognizing 
I have a minute and 10 seconds, and say to you that it is all 
about capital at a place like Fisk. One hundred and forty-two 
years old in October, we are the first university in Nashville, 
and we are blessed to have a campus that is listed on the 
register of historic sites, but with that comes an overwhelming 
requirement to take care of these beautiful buildings. When I 
arrived, deferred maintenance--the last study done in 1995--was 
at $19 million. Fast forward and re-up that analysis, we are 
over $30 million in deferred maintenance.
    A few of the things that really work for us--if anybody has 
looked at Fisk's history and background, we would not have 
these stellar programs in science without congressional 
support. We have five centers of excellence that are supported 
by agencies of government, not the Department of Energy, but I 
think we can work on that one.
    The other thing that is valuable to us are all of the 
grants coming to Fisk University out of Title III, it goes for 
operations and enhancement of our programs, and most 
importantly to use to lever endowment. So, as that Title III 
gets whittled away, opportunities for more capital to invest in 
a great university cease to exist. But we are going to do our 
job, at any rate.
    I am a proud graduate of Fisk University. I say to my kids 
I came out in the last century, and the difference between 
today's Fisk and yesterday is that we are meeting the needs of 
brilliant and excellent low-income and first-generation college 
students, and I believe that that is our correct mission.
    I thank you for the opportunity to sum up.
    All right. I am going to get it done in a hurry. Every 
university represented here has a great story to tell, and I 
know that I am talking to the choir in this particular church 
to say that I understand that you understand our needs. The 
difficulty we will all have is with capital for the near term 
and the long term.
    I just want to cite you an example. At Fisk, I looked it up 
before I left, of course, our debt service is approximately 10 
percent of our budget. It could be a lot less if Fisk could 
simply refinance those loans. We will always carry debt. We 
cannot carry much more because everything at Fisk is already 
collateralized, and I would point out to all of you another 
thing that you know is that we are collateralized at too high a 
level.
    We will do our job. We look very much forward to working 
with the committee, and I have had some great jobs in my life, 
but none as great as being the president of Fisk University.
    I thank you for this opportunity.
    [The statement of Ms. O'Leary follows:]

    Prepared Statement of Secretary Hazel O'Leary, President, Fisk 
                               University

    Mr. Chairman, and Members of the Committee: Thank you for the 
opportunity to discuss the importance of Historically Black Colleges 
and Universities to the nation. It is my intention that this 
conversation yields a better understanding not only of their historical 
significance but also of their current contribution to this nation's 
process of social mobility.
    I believe that Fisk is an excellent example of the triumphs and 
opportunities that these institutions experience. Further, I believe 
that it will become apparent that the challenges that many HBCUs cannot 
always be separated from America's higher educational crisis.
    I would like to begin by giving a brief historical perspective of 
the storied history of Fisk University.
Fisk's Storied History of Academic Excellence
    Founded mere months after the Civil War, Fisk was Nashville's first 
university.
    Fisk was established by John Ogden, Reverend Erastus Milo Cravath 
and Reverend Edward P. Smith and named in honor of General Clinton B. 
Fisk of the Tennessee Freedmen's Bureau. Fisk opened to classes on 
January 9, 1866 with the stated mission of providing a quality liberal 
arts education without regard to race. In fact, the children of many of 
the northern white instructors who came to teach at Fisk actually 
studied alongside African American students at a time when segregation 
was not just a social rule, but in many circles, a biblically 
sanctioned practice.
    Many know about the world-famous Fisk Jubilee Singers. They started 
as a group of students who traveled to earn enough money to provide 
food and other critical support for the financially challenged school. 
The Singers rasied enough money over the course of six years to build 
the first permanent structure in the country built for the education of 
newly freed slaves. They succeeded and funded construction of the 
renowned Jubilee Hall; the first permanent structure in America built 
specifically for educating African Americans.
    During their performance for Queen Victoria in 1873, it was she who 
remarked that these fine young people surely must have come from a 
musical city. Hence, Nashville, Tennessee has prided itself in being 
promoted as Music City, U.S.A.
    Our 42 acre campus is a National Historic Landmark and is on the 
National Registry of Historic Places and has been a living and learning 
environment of countless thousands of students, faculty, and 
administrators, some of whom are in the U.S. Senate and legislative 
bodies throughout the nation today.
    <bullet> W.E.B. DuBois, sociologist, scholar, first African-
American to earn a Ph.D. from Harvard; Founder of NAACP
    <bullet> Dr. Bradley Sheares--CEO of Reliant Pharmaceuticals, 
formerly president of the U.S. Human Health division of Merck & Co., 
Inc., where he had commercial responsibility for the company's 
portfolio of prescription medicines for the treatment of chronic and 
acute diseases in the United States.
    <bullet> St. Elmo Brady, first African-American to earn a doctorate 
in chemistry.
    <bullet> Elmer Imes, 1st African American to receive PhD in physics
    <bullet> Joyce Bolden, first African-American woman to serve on the 
Commission for Accreditation of the National Association of Schools of 
Music
    <bullet> John Lewis, politician, civil rights activist, former 
President of SNCC
    <bullet> Percy Lavon Julian, first African-American chemist and 
second African-American from any field to become a member of the 
National Academy of Sciences.
    <bullet> Cora Brown, first African-American woman to be elected to 
a state senate
    <bullet> Johnnetta Cole, anthropologist, former President of 
Spelman College and Bennett College
    <bullet> John Hope Franklin, historian, professor, scholar, author 
of landmark text, From Slavery to Freedom, graduate of the class of 
1935
    <bullet> Nikki Giovanni, poet, author, professor, scholar
    <bullet> Alcee Hastings, U.S. Congressman and former U.S. district 
court judge
    <bullet> James Weldon Johnson, author, poet and civil rights 
activist, author of the ``Negro National Anthem'' ``Lift Ev'ry Voice 
and Sing''
    <bullet> Alma Powell, wife of Gen. Colin Powell
    <bullet> Kay George Roberts, orchestral conductor
    <bullet> Martha Lynn Sherrod, Presiding District Court Judge, first 
African American to win an at-large election in North Alabama since 
Reconstruction
    <bullet> Matthew Knowles, President and CEO of Music World 
Entertainment and manager of Beyonce Knowles, his daughter
    It was at Fisk that these, and many others who remain lesser-known 
contributors to American life and culture and beneficiaries of the 
social mobility earned, and continue to earn, by receiving a Fisk 
education.
    While Fisk is known for producing some of the most thoughtful and 
globally engaged persons in the 19th and 20th Centuries, its 21st 
Century legacy has been and will be the matriculation and education of 
students who, at least statistically, are not expected to earn a 
college degree. The image of Fisk as a bastion of black middle class 
elitism has certainly given way to a talented and academically 
accomplished student body of which 91% must receive some form of 
financial aid in order to afford college.
    In 1951, Fisk became the first HBCU to induct members into the 
prestigious Phi Beta Kappa Honor Society. We continue that legacy each 
year by adding to the membership ranks of that very prestigious liberal 
arts society.
    It was a young civil rights organizer named Diane Nash who on May 
10, 1960, having led a group of students from Fisk's campus to the 
Nashville mayor's office to confront him about a segregated downtown 
who employed the Socratic method learned in her courses at Fisk to get 
him to admit that segregation was not only harmful but morally wrong.
    It was John Lewis who, while a student at Fisk and American Baptist 
College in Nashville, protested the segregated conditions of Nashville. 
John participated in the Freedom Rides to desegregate the South, and 
was a national leader in the struggle for civil rights. He became 
nationally known after his prominent role on the Selma to Montgomery 
marches, when police beat the nonviolently marching Lewis mercilessly 
in public, leaving wounds that are still visible today.
    As well as being the incubator for many world changers with name 
recognition, equally important are the many unnamed teachers, business 
professionals, lawyers, scientists, and community leaders who claim 
proudly their participation in the Fisk experience. Among many other 
notable firsts, in 1952 Fisk University was the first historically 
black college or university to induct students into a chapter of Phi 
Beta Kappa Honor Society.
II. The Turning Point--Impact and Opportunity
    In spite of having roots in northern philanthropy, Fisk's fortunes 
have paralleled the health of the overall economy as well as the 
funding environment experienced by many small liberal arts colleges and 
universities.
    In addition to those economic variables, the social and demographic 
changes of the last half-century have also had an impact on our mission 
and have caused some public policy practitioners and potential donors 
to question the necessity of the HBCU.
    In spite of increased competition from better-capitalized majority 
institutions, the fact remains that historically black colleges and 
universities account for 3 percent of the numbers of schools in this 
country but produce twenty-four percent of the African American college 
graduates in the United States.
    Thomas Friedman's book The World is Flat presents the thesis that 
an increasingly developed world with rising standards of living across 
the globe means increased competition for limited resources on an 
unprecedented scale. It is for that very reason that our schools must 
get it right. This country needs all hands on deck if we are to prosper 
in the coming decades. The challenges are so great and the need for 
ethical leadership so intense that to leave any individual without 
opportunity is to threaten the security and progress of us all.
III. Reinventing a Historical Educational Institution with a Racial 
        Designation
    The designation of ``historically black'' frequently prompts some 
to question the social necessity of our schools. The key for Fisk's 
success is the assembly of two-way partnerships with public and private 
sector organizations. Fisk has employed this strategy in educating 
tomorrow's scientists.
    According to a study conducted by the National Science Foundation, 
Fisk University, with a student population of under a thousand, 
graduates more African Americans who go on to earn the PhD in the 
natural sciences than any school in the nation, in spite of having a 
student body of fewer than 1,000 students. Our committed faculty, which 
includes a two-time R&D 100 Award winning physicist and winner of the 
Room Temperature Semiconductor Award has the flexibility to focus on 
the needs of individual students.
    An important tool in our excellence in the sciences is the Center 
of Excellence in Physics and Chemistry of Materials (CPCoM) supported 
by the National Science Foundation and a second center of excellence is 
supported by the Department of Defense called the Center for Optical 
Logic Devices (COLD). It is through those centers that our masters to 
doctorate bridge programs in physics, biology and nursing find support 
and have continued and productive connections to graduate programs and 
research resources across the nation.
    What is critical to our success in this effort are the ongoing 
relationships between government agencies and partner universities. 
Those relationships provide Fisk with financial and programmatic 
support that ensures robust and relevant academic programs in the areas 
of law, medicine, and other disciplines. Those universities span the 
country and include Howard University, Meharry Medical College, 
Vanderbilt University, Case Western Reserve University, Belmont 
University, and others.
    In December of 2007, Fisk received a challenge grant from the 
Andrew W. Mellon Foundation that could bring a total of $7 million to 
the University by June 30, 2008. As we continue to raise the funds to 
meet that challenge, the University is also involved in what we have 
termed a re-alignment. That effort has as its goal the rebalancing of 
Fisk's core operations with its resources, in short, to build a Fisk 
with a smaller footprint with a taller steeple.
    We started a ground-up analysis of all academic and administrative 
programs in the late fall. At the end of that process what will result 
is a business model that enhances Fisk's strengths, eliminates poorly 
performing areas and consolidates increased resources into programs 
that are viable but in need of increased investment.
IV. Financial Challenges
    As I mentioned earlier, 91% of Fisk students receive some sort of 
financial aid. With competition from well-funded majority institutions 
Fisk has had to work harder to provide institutional scholarships and 
aid for top students.
    This is where one of the key differences in a school like Fisk and 
a majority institution is most visible. We have demonstrated time and 
again that if we can admit and support a student in his or her first 
year there is a 86% chance that we will retain them for further study 
and graduation.
    Conversely, many majority institutions, while they have less 
difficulty financing minority students, with few exceptions, they 
consistently have difficulty in retaining them from their first year to 
second and an even more difficulty graduating them.
    A key initiative in which Fisk is currently engaged is the 
development of an endowed scholarship fund of which the corpus will 
generate funds to be used to attract academically talented students to 
Fisk.
    This year, Fisk's entering class had an average GPA of 3.32 and an 
ACT score of 22.5.
V. The Pathway Forward
    As one of the nation's flagship historically black universities 
Fisk has tremendous outcomes relative to its resources. The scientific, 
social, and cultural impact that a university should have through the 
creation of new knowledge is a critical part of what we work hard to 
improve everyday.
    Funds from all sources, especially Title III and IV funds are 
sometimes the difference between possibility and impossibility for a 
number of Fisk University student oriented initiatives as well as 
research projects.
    Title IV funds for Pell Grants are critical portions of Fisk's 
student's financial aid packages.
    The use of Title III to encourage endowment growth is a key 
strategy to increase the endowment size and thus self-sufficiency of 
our schools.
    Fisk receives grants from the following agencies:
    <bullet> HUD provides community-based initiatives on campus.
    <bullet> Interior Park Service funds help us to restore our 
historic buildings.
    <bullet> Justice Department grants to enhance campus security.
    <bullet> Department of Energy provides Fisk with research funding 
for the development of radiation detection equipment.
    <bullet> National Science Foundation grants supports both 
undergraduate and graduate students engaged in material science 
research
    <bullet> Space science related research is supported by NASA, 
including collaborations with NASA centers.
    <bullet> Department of Defense supporting cutting edge research in 
optical sciences in collaboration with Idaho State University.
                                 ______
                                 
    Chairman Miller. Dr. Yancy?

STATEMENT OF DOROTHY COWSER YANCY, PRESIDENT, JOHNSON C. SMITH 
                           UNIVERSITY

    Ms. Yancy. Chairman Miller, Ranking Member McKeon, I appear 
before you today to thank you all for passing the College 
Opportunity and Affordability Act of 2007 and reauthorizing and 
strengthening the Higher Education Act of 1965.
    I come from the 12th District in North Carolina, Johnson C. 
Smith University, the home of Congressman Mel Watts. I appear 
before you to share some of the many ways in which the 
provisions in this act have helped Johnson C. Smith become a 
leader among private liberal arts colleges. As I always say, at 
Johnson C. Smith, we have always been able to wash clothes 
without washing powder.
    We have been recognized----
    [Laughter.]
    Ms. Yancy. That is right. We have had so little for so long 
that we have learned to live with it, but we could always use 
more.
    We have a small endowment of $53 million, and we are the 
beneficiary of the Duke Indenture. Over the years, we have been 
recognized by U.S. News & World Report as one of the best 
comprehensive colleges in the South since 2001. We are 
recognized as the first and only HBCU laptop university where 
all students are given laptops. And in 2007, we were also 
ranked in the top 10 of HBCUs in America by U.S. News & World 
Report.
    But we are most proud of what happened in 2000 when Yahoo 
ranked JCSU as one of the top 50 most wired small colleges. I, 
therefore, encourage you to settle all of your differences on 
H.R. 694, the Minority Serving Institution Act, regarding 
digital and wirelessness because we all need that. Most of our 
students, so many of our schools, are only 88 percent in terms 
of their connectivity, in terms of just the basic connectivity, 
and 45 percent of the students at our schools, HBCUs, do not 
have a laptop.
    I would also like to remind you as to why we exist. We 
exist because we serve a particular population. We were created 
at a particular time when special purpose institutions were 
created, as you have already mentioned, but we must remind you 
constantly that we are not obsolete, that we must continue to 
exist. If we did not exist, we would have to create us.
    The most powerful reason for our existence has to do with 
economics. Educational preparation results in higher income 
levels, strengthens America's society. Everyone knows that a 
college graduate will always earn more than a non-college 
graduate, even though we know that the average African-American 
with a bachelor's degree will earn $1.7 million in a lifetime 
whereas a white college graduate will earn about $2.1 million. 
We play a critical role in fulfilling the higher education gap, 
and we plug what we call the economic gap which was first 
identified by the Kerner Commission.
    You have already stated that there are so few of us, 4 
percent, yet we graduate so many, 30 percent, of African-
American students. But there is another problem here. According 
to the data from the NSF, six of the top 20 predominantly white 
institutions receive more federal funds for research than 79 
HBCUs combined. If we are to have adequate research facilities 
and if we are to be competitive, we must receive more federal 
funds for research. I would argue that that a continued 
investment in HBCUs is a good investment for this country and 
for this nation.
    Johnson C. Smith was created in 1867 by the Presbyterian 
Church. Now somewhere along the way--you know, Presbyterians 
can be quite feisty--we seceded from the church in 1868, and so 
we have been an independent institution ever since.
    But there is something I really would like to thank you 
for, and that has to be the Title III funding. Since 1997, 
Johnson C. Smith has received more than $17.5 million. We have 
used these funds, and we have pinched the pennies. We have 
developed technology infrastructures. We have dealt with aging 
facilities, maintenance, upgrades, and renovations. We have 
dealt with personal resources. We have dealt with data 
management infrastructures, institutional planning, and 
effectiveness in assessment of student success, and persistence 
to graduation, and we have also look at alternative funding.
    But we have also institutionalized many of the programs 
that we have started. We, for example, have built an 
information center and office of mobile computing. We have an 
institution of planning, assessment and effectiveness program, 
sponsored programs, research, academic retention, and support 
services, faculty development, facilities management, tutorial 
services, and discipline-based computer technology.
    What I am trying to tell you is if you give us some 
dollars, we have taken these dollars and we have 
institutionalized, and we have not simply thrown them to the 
wind.
    One concern that I have here is Title IV. Title IV is a 
great program. Eighty-three percent of my students are 
receiving financial aid. But, as I look at my students, they 
are being impacted disproportionately by the economy. For 
example, this year, 1,000 students applied for the family--I 
call them parent loans. Only 500 of them qualified because of 
bad debt. That meant that many of those students had to go to 
alternative loans which have high interest rates. Of those 
students, I had 15 percent of my students acquiring alternative 
loans.
    So you need to understand that the economy has impacted us. 
I read an article that came out yesterday that said less than 
10 percent of the students in this country were getting 
alternative loans and they were all at for-profit institutions. 
That simply is not true. They are also attending our schools, 
and they are being impacted in a disproportionate way.
    I would argue that Pell has to be increased, which you have 
already agreed to. I would argue that the Title II's, Teacher 
Quality Enhancement Provisions have to be strengthened. I would 
argue that in terms of challenges, endowments have to be dealt 
with. We probably have one institution with an endowment of 
more than $500 million. That is a crisis. You have to have to 
money in order to continue to strengthen your programs, pay 
your bills, and just do the things that you have to do to have 
a successful institution.
    The other thing that we need to look at is sustaining 
leadership within our institutions. I am retiring. I am looking 
forward to it. [Laughter.]
    But I also know that the pipeline of presidents, CFOs, 
provosts, et cetera, is fairly thin, and there also needs to be 
something done about the training of trustees and people who 
sit on these boards from the state levels who determine what 
happens to our institutions. Sometimes they know little or 
nothing about education, but they become experts once they are 
appointed.
    But that is about all I have to say. I will take questions 
afterwards. [Laughter.]
    Thank you very much for your time.
    [The statement of Ms. Yancy follows:]

 Prepared Statement of Dr. Dorothy Cowser Yancy, President, Johnson C. 
                            Smith University

    Chairman Miller, Ranking Member McKeon and Members of the 
Committee, thank you for affording me the opportunity to appear before 
you today on behalf of Johnson C. Smith University, located in North 
Carolina's 12th Congressional District, where I have served as 
President for fourteen years this month. Thank you for hosting this 
very important hearing on ``America's Black Colleges and Universities: 
Models of Excellence and Challenges for the Future.'' I thank the 
National Associational for Equal Opportunity in Higher Education 
(NAFEO) for requesting this hearing and for all that the Association 
did to provide information to Committee Members and staff as you shaped 
this hearing.
    Johnson C. Smith University is a UNCF member institution along with 
thirty-nine (39) other private Historically Black Colleges and 
Universities (HBCUs). Johnson C. Smith is also a member of the National 
Association for Equal Opportunity in Higher Education (NAFEO), the 
membership association of the presidents and chancellors of private and 
public HBCUs and the newly recognized Predominantly Black Institutions 
(PBIs), some one hundred twenty (120) institutions, representing 
roughly 400,000 students, more than 25,000 faculty and more than 4 
million alumni. NAFEO's more than 120 member institutions are located 
in twenty-five states, the District of Columbia and the Virgin Islands.
    I appear before you today to thank you Mr. Chairman and to thank 
Ranking Member McKeon, Congressman Ruben E. Hinojosa, Chairman of the 
Subcommittee on Higher Education, Lifelong Learning, and 
Competitiveness, and all of the Members of this Committee for passing 
``The College Opportunity and Affordability Act of 2007'' reauthorizing 
and strengthening the Higher Education Act of 1965, as amended through 
the years. I appear also to share with you a few of the many ways in 
which provisions in the Higher Education Act have helped to make 
Johnson C. Smith University a leader among private liberal arts 
colleges in the nation. JCSU has been recognized by U.S. News and World 
Report as one of the best comprehensive colleges in the South since 
2001, it is recognized as the first and only HBCU laptop University 
where all students are given laptops, it is ranked in 2007 by U.S. News 
and Reports as one of the top 10 HBCU's in America, and it was ranked 
by Yahoo in 2000 as one of the top 50 most wired small colleges. Today 
I offer a few suggestions for strengthening the Act during 
reconciliation of the House College Opportunity and Affordability Act 
(H.R. 4137) and the Senate Higher Education Amendments (S. 1642).and 
Senate bills. Given the time constraints this morning, I have prepared 
a written statement that I will submit for the record. I will share 
just a few observations with you this morning.
    Before I share my observations, I want to recognize Congresswoman 
Virginia Foxx, a member of this Committee and North Carolina's 
congressional delegation, representing the 5th Congressional District 
that includes Clemmons and Boone. I want to extend my special 
appreciation and that of the HBCU community to Congressman Bobby Scott, 
the Chairman of the Congressional Black Caucus' Braintrust on 
Education, who is a steadfast champion of education excellence, access, 
equity and for the strengthening and enhancement of the phalanx of 
HBCUs. We appreciate Congressman Scott's leadership and that of 
Subcommittee Chair Hinojosa that resulted in many of the provisions for 
strengthening HBCUs contained in ``The College Opportunity and 
Affordability Act of 2007.'' The leadership of Congressman Scott, 
Chairman Hinojosa and others on the Subcommittee also resulted in the 
inclusion in the Budget Reconciliation Act of new dollars for HBCUs, 
HACU institutions and other MSIs, for which we are also grateful.
    For more than 100 years, the Nation's Historically Black Colleges 
and Universities (HBCUs) have struggled to overcome their institutional 
legacy of segregation and differential treatment at the hands of the 
states and the Federal Government that was exacerbated by the lack of 
primary and secondary education provided to the slaves, and later 
complicated by segregated K-12 schools. HBCUs exist in 21st Century 
America in a virtual higher education vacuum--viewed by some, including 
some African Americans, as a relic of America's segregated past and 
having no real place or role in America's presumably diverse higher 
education community. The HBCUs are questioned by others who questioned 
their effectiveness at overcoming the educational deficits of many 
students enroll at these institutions, and challenged by others because 
they benefit from special funding like Title IIIB of the Higher 
Education Act of 1965, as amended.
    Historically black colleges and universities, which represent a 
unique source of hope and advancement, have consistently performed the 
important function of helping African Americans hone their talents in 
order to contribute to American society. Much of the diversity among 
institutions in the higher education community was birthed in an 
earlier time when so-called ``special purpose'' institutions were 
created due to the exclusion of women, Catholics and Jews, the 
disabled, and others from ``traditionally white institutions.'' Just as 
institutions serving these segments of the American population have not 
become obsolete, institutions founded to meet the educational needs of 
African Americans have not become obsolete. While it remains 
commonplace to question the function and presence of the HBCUs--most 
recently by U.S. Civil Rights Commissioner Abigail Thernstrom in a 
November 30, 2007 Wall Street Journal column--Charles V. Willie 
answered the ``Why Black Colleges?'' question in a 1979 Change Magazine 
article:
    A self-centered attempt to save Black institutions for Blacks would 
be as damaging as an other-directed effort to remake them in the image 
of whites. Both actions ultimately would end in defeat. Black colleges 
and universities must be prepared for their value to society as a 
whole. A higher education system with a Harvard but not a Hampton is 
incomplete. Black colleges and universities have a future in our 
society because of their function.
    The most powerful reason for encouraging and supporting the 103 
historically black colleges and universities is economic. Educational 
preparation resulting in higher income levels strengthens American 
society by creating productive citizens and the financial and human 
costs associated with uneducated, unproductive and non-participating 
citizens in the American enterprise. It is estimated, over a lifetime, 
that the average U.S. citizen with a baccalaureate degree will earn 
$2.1 million, while a person with a high school diploma will earn only 
$1.2 million. This `earnings gap' is much wider for African Americans. 
The average African American with a bachelor's degree will earn $1.7 
million, while the average African American with a high school diploma 
will earn about $1 million.
    The HBCUs play a crucial role in filling the higher education gap, 
and hence they also plug the economic ``gap'' that was first identified 
by the 1968 Kerner Commission Report, whose twentieth anniversary was 
just celebrated. Title IIIB of the Higher Education Act defines ``a 
part B institution'' as ``* * * any historically black college or 
university that was established prior to 1964, whose principal purpose 
was, and is, the education of Black Americans. Yet, it is important to 
note that many of our public and private HBCUs have diverse student 
bodies including many white students, Latinos, and international 
students from all around the globe.
    HBCU's today represent only 4% of all higher education 
institutions, but they graduate approximately 30% of all African-
American students, 40% of African American students receiving a four-
year degree in STEM, and 50% of African American teachers. These 
successes are attributable in part to resources made available through 
the Higher Education Act. The successes were achieved despite the fact 
that in recent year's federal support for HBCUs has only increased in 
very modest amounts; and in spite of the fact that HBCUs continue to 
receive significantly less funding for research, facilities, and 
programs than their historically white counterparts. According to data 
from the National Science Foundation, for example, 6 of the top 20 
predominantly white universities received more federal funds for 
research than 79 HBCUs combined.\1\ The NSF report shows that despite a 
quantifiable record of success at educating African American scientists 
and engineers, HBCUs continue receiving disproportionately fewer 
federal dollars. This pattern if left unabated will pose a barrier to 
black colleges remaining comparable and competitive with historically 
white institutions. The pattern must be reserved. With the amendments 
you made to the Higher Education Act, with my proposed actions by the 
conference committee, and suggestions advanced by others on this panel 
with me this morning, the pattern will be reversed. Continued 
investment in HBCUs is good for the HBCU community, good for the nation 
and good for the world.
---------------------------------------------------------------------------
    \1\ Richard J. Bennof, ``FY 2005 Federal S&E Obligations Reach Over 
2,400 Academic and Nonprofit Institutions; Data Presented on Minority-
Serving Institutions'' Info Brief National Science Foundation NSF 07-
326 (revised), Directorate for Social, Behavioral, and Economic 
Sciences, October 2007.
---------------------------------------------------------------------------
    To provide a clear understanding of the extent to which support 
under Titles IIIB, IV, of the Higher Education Act has assisted Johnson 
C. Smith to evolve into the world class liberal arts university that it 
is today, I will briefly share with you something about the history and 
growth of Johnson C. Smith in recent years.
    Johnson C. Smith was founded in 1867 under the auspices of the 
Committee on Freedmen of the Presbyterian Church; U.S.A. Johnson C. 
Smith is an independent, private, coeducational institution of higher 
learning. JCSU has received over $17.5 million dollars since 1997 in 
federal support under the federal formula. These institutional dollars 
have enabled Johnson C Smith to institutionalize strategic practices 
and improvements
    The following target areas of the Comprehensive Development Plan 
(CDP) describe recurrent institutional challenges and strategic 
purposes that have persisted over the past few years and reflect both 
national as well as local themes we must continue to address:
    <bullet> Maintain an effective and developmental technology 
infrastructure (hardware, software, people, training) to support the 
administrative and academic mission of the university
    <bullet> Aging facilities require on-going maintenance, upgrades, 
and renovations to support new development in curriculum and 
instruction.
    <bullet> Academic innovations require additional personnel 
resources as well a recurrent training to improve quality.
    <bullet> Data management infrastructure to support institutional 
planning, effectiveness, and assessment to support effective decision-
making
    <bullet> The institutional enrollment profile and mission requires 
us to provide special programs to insure student success and 
persistence to graduation.
    <bullet> Increasing cost in utilizing technology and shrinking 
institutional budgets requires us to develop our institutional capacity 
to generate alternative sources of funding.
    What we have come to realize is that these CDP target areas reoccur 
in some shape or form whenever we begin to engage issues of planning, 
development and resource allocation. They are, and will continue to be 
for some time, a strategic challenge for the institution as it evolves 
its future. Title III supports the development of project activities to 
reduce the effect of these recurrent themes on the programs of the 
University. Title III has supported us in capacity-building to solve 
our recurring strategic challenges.
    Institutionalization of Title III activities will continue to occur 
as we integrate Title III activities. This is evidenced historically by 
the fact that the following offices were developed by Title III funding 
and continue to play a role in Title III program development:
    <bullet> Information Center
    <bullet> Office of Mobile Computing
    <bullet> Institutional Planning, Assessment, Effectiveness and 
Research
    <bullet> Sponsored Programs and Research
    <bullet> Academic Retention and Support Services
    <bullet> Faculty Development
    <bullet> Facilities Management
    <bullet> Tutorial Services
    <bullet> Discipline Based Computer Technology
    A portion of the work of these well established offices still 
coordinate in the development of new and critical Title III activities. 
We have achieved a kind of transparency with Title III and 
institutional development. This integration of Title III and these 
critical areas of concern have been progressively interwoven into the 
fabric of the institution as new administrative and academic services 
primarily supported by institutional funds. New activities of these 
offices will extend the evolution and work on these recurring and 
persistent problem areas and our Title III partnership will result in 
new institutionalized capacity in the form of new offices, programs, 
and personnel.
    The ``Strengthening Historically Black Colleges and Universities'' 
program has been, and continues to be, not only the principle source of 
institutional assistance for Johnson C. Smith, but for the vast 
majority of HBCUs. Since its inception, the Title IIIB program has been 
very successful in supporting strategic planning initiatives, academic 
program enhancements, administrative and fiscal management, student 
services, physical plant improvements, and general institutional 
development.
    The Title IIIB dollars are transforming HBCUs to meet the 
challenges of a new century with cutting cutting-edge projects in 
agriculture, science, technology, and international education. Title 
IIIB dollars are also enabling HBCUs to provide vital education, health 
care, human needs, economic and community development, and recreation 
services for the communities in which they are located.
    Finally, the Title IV Student Assistance programs have enabled 
Johnson C. Smith University to maintain its student enrollment with 83% 
of its students receiving financial aid.
Recommendations
    Pell Grant Program--I strongly support improvements in the Pell 
Grant program; especially the proposed increases in the Pell Grant 
maximum award to more clearly reflect the cost of tuition and fees at 
four-year public colleges and universities. Of course, the cost of 
tuition and fees as private institutions, like Johnson C. Smith 
University, is generally higher than that of public institutions, but 
at this point in our nation's history in which a college education is 
vitally important, we should make a national commitment, at a minimum, 
to afford funding for those of least advantage who are desirous and 
prepared for college to be able to afford the cost of a public 4-year 
institution. Congress should retain the current $4000 minimum and 
establish a maximum award linked to the tuition and fees of the cost of 
a public 4-year college according to the annual College Board Cost of 
College report. Students at Johnson C. Smith University commonly work 
two and three jobs to make ends meet.
    I appreciate and applaud the inclusion in both the House and Senate 
Higher Education Act reauthorization bills, on a bipartisan basis, of 
provisions that establish student eligibility for a Year-Round or 
``third semester'' Pell Grant.
    Teacher Quality Enhancement--There is a great deal more to do. The 
Title II Teacher Quality Enhancement programs contained in both the 
House and Senate reauthorization bill will strengthen our teacher 
education programs in a significant way. The changes incorporated in 
Title II of both the House and Senate bills targeting funds on 
partnerships composed of institutions of higher education, local 
education agencies (LEAs), especially ``high need'' LEAs, non-profit 
organizations, and others, and the removal of states as partner 
grantees will focus limited resources on entities located closest to 
those involved directly in preparing teachers and in providing 
professional development for existing teachers. The HBCU community is 
especially pleased with the language in he House bill, H.R. 4137, that 
provides for Development Leadership Programs for partnerships that 
would focus on the preparation of superintendents, principals and other 
school administrators, and gives priority in the award of partnership 
grants to teacher preparation programs that have a rigorous selection 
process, i.e. NCATE accredited institutions with PRAXIS-related 
graduation requirements. Johnson C. Smith is such an institution, and 
we will encourage your Senate counterparts, especially those in the 
North Carolina delegation to accept this House-passed, important 
provision.
    I strongly support the Augustus F. Hawkins Centers of Excellence 
provisions in H.R. 4137 that are designed to provide funds for HBCUs 
and MSIs, or consortia of such institutions, to strengthen their 
teacher preparation programs. The Augustus F. Hawkins Centers of 
Excellence in Teacher Education would enable ten HBCUs, like Johnson C. 
Smith, with exceptional Departments of Education, to establish or 
enhance collaborative centers of excellence in which to prepare highly 
qualified teachers to close the achievement gap that plagues minority 
students, who in turn, will disproportionately opt to teach in the most 
underserved communities. The funding to create state of the art teacher 
training facilities contained in the legislation for the institutions 
that house these centers, to create s, will be immeasurably helpful to 
those of us who are meeting not only the needs of our states for 
exceptional, diverse teachers, but for the nation, with sparse 
resources.
Other issues and challenges
    The historically black colleges and universities are not without 
their challenges as they continue to mature as institutions and compete 
in the larger arena for private and Federal funding support, as they 
seek out African American and other students in a highly competitive 
admissions climate, and as they strive to keep their infrastructure and 
instrumentation competitive with their peers in the higher education 
community. Let me mention several issues that are at the core or my 
concerns as I leave the presidency of Johnson C. Smith University at 
the end of the academic year.
    Endowment Building and Institutional Development--Fewer than five 
HBCUs have endowments that exceed $500,000 and only one that exceeds $1 
million. Institutional endowments represent necessary shelter against 
the winds of change in higher education, especially for small, private 
colleges like Johnson C. Smith. Most of the HBCU institutions have low 
or no endowment to speak of, and too many struggle just simply to pay 
their bills on time, provide scholarship funds for needy, highly 
qualified students, and to pay faculty and staff a quality salary. 
Competition for private sector and foundation support and for Federal 
grant and contract dollars, including congressional ``earmarks'' has 
intensified--as public and private colleges compete for declining 
resources and donors insist upon a quid pro quo or recognition for 
large gifts or grants.
    Institutional Accreditation--At least three two-year and five four-
year HBCUs have had their accreditation withdrawn by the Commission on 
Colleges of the Southern Association of Colleges and Schools (SACS) or 
Commission on Higher Learning of the North Central Association of 
Colleges and Schools during the past two decades. Many other public and 
private HBCUs have been sanctioned by SACS and other regional 
accrediting agencies, and continue to operate in a fiscally ``at-risk'' 
posture that threatens their continued existence and viability.
    Two-Year Colleges: Morristown College; Clinton Jr. College; Shorter 
College; Mary Holmes College.
    Four-Year Colleges: Barber Scotia College; Edward Waters College; 
Knoxville College; Morris Brown College; Texas College.
    Clinton Jr. College regained its accreditation with another 
accrediting association. Texas College successfully restored its 
accreditation with SACS within two years. Edward Waters successfully 
pursued litigation against SACS and secured a settlement that provided 
a path for the restoration of its accreditation. Knoxville College and 
Morris Brown College remain open without regional accreditation.
    Sustaining Institutional Leadership--One of the most pressing 
challenges facing the HBCU community is the identification and 
preparation of quality institutional leadership for the presidency and 
the first-tier of institutional leadership, especially Vice Presidents 
for Fiscal Affairs/Chief Financial Officers (CFOs), Chief Information 
Officers (CIOs), Provost/Vice Presidents for Academic Affairs, Vice 
President for Institutional Development, and Graduate Deans (where 
appropriate), etc. Our needs in these areas are strained by limitations 
in the available pool of applicants, salary limitations, etc. Rapid 
turnover in the presidency or chancellors, in the public sector, also 
impacts the tenure of the first-tier administrative staff and 
executives. A related and challenging question has to do with the 
skills and abilities of HBCU trustees or boards of directors. Training 
and skill development--including developing an understanding of the 
roles and duties of trustees is critical, especially as it relates to 
search and selection of the president or chancellor. This issue is 
complicated among the private colleges by self-perpetuating boards and 
in the public sector by the gubernatorial power of appointment or 
election of public institutional trustees.
    The above are just a few of my observations regarding the many 
improvements to the Higher Education Act contained in ``The College 
Opportunity and Affordability Act of 2007.'' I again express my deep 
appreciation for the determination of this Committee to move this bill 
forward, but not at the expense of denying the public, and especially 
the broad and diverse stakeholders, an opportunity to participate in 
the deliberative process.
Conclusion
    The Higher Education Act is one of the most important pieces of 
legislation to the institutions that are among the constellation of 
colleges and universities we call HBCUs. These institutions were 
founded before 1964 to educate black Americans who were, at the time of 
their founding, denied access to most historically white colleges and 
universities (HWCUs). HBCUs were defined in the 1986 Amendments to the 
Higher Education Act by their mission and purpose, not by the racial or 
ethnic make-up of their student enrollment. Many HBCUs have 
increasingly diverse student bodies, including my own institution, 
Johnson C. Smith, which has as its mission providing outstanding 
education for a diverse group of talented and highly motivated students 
from various ethnic, socioeconomic, and geographic backgrounds. We 
enroll 1470 students from many backgrounds, although the majority of my 
students are African American. Many have few financial means. They 
overwhelmingly share a thirst for knowledge and the belief that the 
familial atmosphere at Johnson C. Smith is aligned with their 
preparation and their aspirations.
    Title IIIB of the Higher education Act, the provision on 
Strengthening the Historically Black Colleges and Universities, has 
been especially important in assisting Johnson C. Smith University to 
become a model of excellence, and in enhancing the 96 other HBCUS that 
are receiving funding under this provision. Title III, Part D of the 
Act, the HBCU Capital Financing Program has enabled many of the HBCUs 
to build and maintain facilities and an infrastructure to attract to 
and retain competitive students at our institutions. Title IV, Student 
Assistance has exponentially expanded access to higher education for 
low-income, first generation and traditionally underserved students--
those who are the majority of students attending Johnson C. Smith.
    I thank you for affording me the opportunity to share these 
observations with you this morning.
                                 ______
                                 
    Ms. O'Leary. Well done, Dorothy.
    Chairman Miller. Dr. Sias?

    STATEMENT OF MARY EVANS SIAS, PRESIDENT, KENTUCKY STATE 
                           UNIVERSITY

    Ms. Sias. Good morning, Chairman Miller and members of the 
House Committee on Education and Labor. I appreciate you 
affording me the opportunity to speak to you this morning, and 
my remarks will really center on two things: the continued 
viability of historically black colleges and universities and 
the expansion of Section 326(e)(1) Eligibility of Historically 
Black Graduate Institutions program contained in H.R. 4137, 
Section 306.
    When I read the newspapers daily and I listen to the news, 
I see that we have challenges and we will continue to have 
those challenges confront us for a very long time in our 
complex world. Solutions are not going to come from simply the 
privileged few who have had the opportunity for a quality 
education, but rather from those whose ACT and SAT scores may 
be modest, but they have had a chance to receive a quality 
education at historically black colleges.
    Our strength as a nation must come from how we structure 
and afford our students quality educational opportunities. For 
more than 100 years, more than 105 HBCUs and universities 
provided access and opportunity not only to black students, but 
to underserved students who wanted a chance. HBCUs have stood 
in the gap and served as a bridge for those students.
    Now, as an HBCU president, I am often asked, ``Are HBCUs 
viable? Do they continue to be relevant?'' And my answer is 
always a resounding, ``Yes.'' But there are some in this 
country, people like George Mason Professor Walter Williams, 
and other syndicated columnists, who have mistakenly 
represented what life at HBCUs is really like.
    Dr. McNealy, a colleague who is sitting behind me, said 
that what they have said is akin to ``yelling fire in a theater 
when there is none. That is not acceptable as legitimate free 
speech because of the harm that is does.''
    What is even worse is when you have someone who is not 
there, who has not seen anything, who took what someone else 
said, and on secondary information yells that there is a fire. 
That is even worse because it perpetrates an untruth and does 
great harm.
    HBCUs did not create the problem and the challenges they 
face. Rather, they have stood at the forefront of the fray 
ready to help find solutions.
    Let me tell you I know you know the numbers. I know you 
know how many students we enroll. I know you know how many 
people we graduate. I am not telling you everything is great. 
It is not. Like our counterparts, we should be graduating more 
students, and if we have more resources and we can build our 
capacity, we will graduate more students.
    We want to graduate students who can critically think, who 
can integrate knowledge, who can speak concisely and 
coherently, and who can use technology. These are the students 
who stand in the forefront. These are the students that we are 
going to count on to lead us and become the next generation of 
leaders.
    For K State and other HBCUs, we take the terror of poverty, 
hunger, fear, and hopelessness, and we turn it into hope, and 
with a little bit more money and capacity, we can do even more.
    That leads me to my second point. I would like to talk a 
little bit about how we need more graduate programs. The 
reauthorizing legislation proposed amendments to Section 326 
that would among other things allow a limited number of 
master's degree programs to receive grants in much the same 
manner that the HBBI program by admitting a small number of 
qualified institutions. The Senate bill would allow 
Fayetteville State, Grambling, West Virginia, and Kentucky 
State to receive grants for our eligible graduate and 
professional programs. I know you know this, Representative 
Yarmuth.
    The Senate has made this conclusion based on its 
interpretation of the language. I am not going to read all of 
it to you, but I want you to know that I know and I know you 
know that the language says qualified graduate program, meaning 
graduate or professional programs that provide programs of 
instructions in physical and natural science. It does not say 
terminal programs or anything else of the sort.
    Kentucky State University has a national reputation for our 
program in aquaculture. We believe that we meet every element 
of that program language, and we want to be included in the 
non-competitive language. The program appears to the Senate and 
appears to K State to meet all those qualifications. I know 
this committee disagrees and has taken the position that the 
language appears to apply to graduate and professional programs 
without limitations to terminal degrees.
    I want to ask you to reconsider that in your conference 
hearing. Please do so. And I want you to know that I hope the 
Senate will continue to keep this in that language.
    And I want to thank the committee, however, for committing 
and creating H.R. 4137 as an alternative to HBCU masters degree 
programs in Title VII of the Act. Kentucky State would be 
eligible, but that is not enough. We want to be eligible on the 
non-competitive side.
    In closing, I want to thank you for your commitment to 
historically black colleges and universities. By your actions 
every day, you tell us that you want to support the next 
generation of students. Our journey begins today, and I know we 
can count on you.
    My grandmother is from the country, and she told me when I 
stood out watching her feed the chickens and churn butter that, 
``Honey, why are you standing up there not doing anything?'' 
And I said, ``Grandma, nobody told me to be involved.'' And she 
said, ``Don't ask or be told what to do. Just simply assign 
yourself.''
    Thank you. HBCUs have been assigning themselves every day, 
and we want you to join us in that challenge. Thank you for 
this opportunity.
    [The statement of Ms. Sias follows:]

Prepared Statement of Mary Evans Sias, Ph.D., President, Kentucky State 
                               University

    Good morning Chairman Miller and other members of the House 
Committee on Education and Labor. I appreciate the Committee affording 
me the opportunity this morning to express my views on two issues: 1) 
the continued viability of historically black colleges and universities 
and 2) the expansion of Section 326 (e) (1) Eligibility of Historically 
Black Graduate Institutions program contained in H.R. 4137, Section 
306.
    As I read the newspaper daily and listen to the news, I see that as 
a country we have challenges that will continue to confront us for a 
very long time in this complex and troubled world in which we live. The 
solutions will come not only from the privileged few who have often had 
quality education reserved for them, but also from those whose ACT and 
SAT scores may have been very modest but still received a quality 
education.
    Our strength as a nation must come from how we structure and afford 
our students educational opportunities.
    For more than 100 years most of the 105 historically black colleges 
and universities have provided access and opportunity not only to Black 
students but to any underserved students who entered our doors.
    At a time when the demand for a college education is climbing 
toward a universal expectation * * * that is a college degree will very 
soon be like a high school diploma * * * HBCUs have responded and 
stepped up to the mark. They stand and have have stood ready to admit 
and enhance the skills of countless students who would have been ``left 
waiting at the door''. HBCUs have stood in the gap and served as a 
bridge for tens of thousands of such students.
    Recently, there has been some discussion about whether HBCUs 
continue to be viable. In fact, I am often asked that question as a 
president of an HBCU. The answer I give is a resounding ``Yes''; HBCUs 
are and continue to be needed and are as vital now to the educational 
system in America as they have ever been.
    One of the great strengths of America is that it made a decision 
and a commitment to try to afford all Americans a chance to receive a 
quality education. Current demographic changes in America show that 
blacks and browns will be more than half of the students we educate in 
the next five to six years. Educating all of American's people is an 
urgent priority. No one can do it better than HBCUs.
    Scholars like George Mason, Professor Walter Williams and other 
syndicated columnists have mistakenly represented to a large degree 
what life is like at HBCUs. One of my colleagues, Dr. Ernest McNealy at 
Stillman College says what they have said is akin to ``yelling fire in 
a theater when there is none. That is not acceptable as legitimate free 
speech because of the harm that is causes. Standing in a theater and 
yelling that someone else said that there is a fire is dangerous 
because the perpetrated untruth further exacerbates the original 
harm''.
    While they were nodding, HBCUs which account for only 3% of the 
nations more than 4,000 colleges and universities, found themselves 
enrolling 16% of African Americans at the undergraduate level. HBCUs 
also continue to account for nearly 30% of all baccalaureate degrees 
and 40% of all first professional degrees to African Americans.
    The numbers do not mean HBCUs are perfect and we certainly have 
many areas to improve. Dr. J.T. Minor recently in a recently published 
piece called, ``Contemporary HBCUs: Considering Institutional 
Capacity'' reports that HBCUs like their white counterparts are losing 
far too many students. According to a survey by The Education Trust, 
only 60% of all college students complete undergraduate study in six 
years. Seventy percent of all students who attend HBCUs are classified 
as low-income which contributes to even lower graduation rates at many 
HBCUs.
    The encouraging news from this report noted by Lezli 
Baskerkerville, president of NAFEO, the National Association for Equal 
Opportunity is that increasing the capacity at HBCUs and investing in 
their missions, which include remediation of students ill-served by the 
PK-12 system, can reverse the trend.
    Institutions like Kentucky State University and other HBCUs you 
will hear about this morning are highly effective in providing access 
to higher education to students that we will rely on tomorrow. In 
Kentucky 52% of all high schools student graduating need at least one 
course in remediation. For African American that number is 77%. KSU and 
other HBCUs take the terror of poverty, hunger, fear and hopelessness 
and turn it into hope.
    On more than 100 small and mid size campuses across this nations, 
our historically black colleges and universities have responded to the 
call to produce students who can think critically, integrate knowledge 
and then communicate that knowledge clearly to others. They have taught 
students to care about the problems facing our communities and to use 
technology and innovation to help solve those problems. HBCUs have 
always stood willingly to be a part of the solution. That has been our 
legacy and continues to be our mission. We stand as ready today as we 
ever have been to make a difference.
    While money may not cure all the ills of our educational system and 
of HBCUs in particular, having adequate resources will go a long way in 
helping to provide a quality education for all those who need it.
    I want to thank the Committee for creating in H.R. 4137 an 
alternative HBCU Masters Degree program in Title VII of the Act, for 
which Kentucky State is unquestionably eligible. This provision is 
sorely needed to create a pipeline to terminal degree programs at our 
institutions.
    The new program, an alternative HBCU Masters Degree program in 
Title VII of the Act created in H.R. 4137, fashioned and advanced by 
NAFEO and TMCF, is designed to provide institutional awards to HBCUs 
and minority-serving institutions that are not eligible to participate 
in the Title IIIB HBGI program in section 326 of the Act. I believe 
that Masters Degree programs that do not lead to doctorates are 
deserving of federal financial support, and that this competitive grant 
program can be of immense assistance to building the capacity of our 
institutions. Indeed, the Senate bill that includes Kentucky State in 
Section 326 includes a program that authorizes competitive grants to 
nursing programs to expand faculty and facilities. The non-competitive 
funding to designated qualified institutions under Section 326 is what 
makes that provision and our inclusion in the Senate bill under that 
Section so attractive.
    Both Section 326 an the new Masters Degree program you incorporate 
in the House bill are about building capacity. You have heard about the 
number of African Americas and minority students who graduate with 
their masters from HBCUs in the fields articulated. These provisions 
will certainly better position the HBCU community to expand 
opportunities and do a better job of meeting the workforce needs for 
highly qualified, compassionate, diverse professionals in high need, 
hared to fill scientific disciplines.
    In closing, I want to thank you for your commitment to Historically 
Black Colleges and Universities. By your actions and commitment you 
show each of us daily that there is hope for the next generation of 
African Americans and minority students.
    We continue to need your help and support. Our future and the 
futures of the next generation of students depend greatly on each of 
you and the actions you take.
    Our journey begins today. My grandmother, a true Renaissance woman, 
once told me when I was standing around and looking at her work * * * 
feeding the chickens, churning butter and washing heavy quilts, ``Don't 
wait to be told what to do; assign yourself.''
    HBCUs have always ``assigned'' themselves. We ask that you join us 
in this effort.
    Thank you. I would be happy to answer any questions you might have.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Dr. Richardson.

   STATEMENT OF EARL S. RICHARDSON, PRESIDENT, MORGAN STATE 
                           UNIVERSITY

    Mr. Richardson. Yes. Thank you. Thank you very much, Mr. 
Chair. Thank you, Mr. McKeon, for your support, Congressman 
McKeon, over the years and now to Chairman Miller.
    Let me just say that I appreciate the introduction by my 
congressman, John Sarbanes, and he and I have talked over and 
often about the value of our black colleges.
    I appear today to join my colleagues and guests talking 
about the great value and contribution of our historically 
black colleges, but, more important, to emphasize the great 
potential and the great promise that these institutions have 
for addressing some of the more vexing problems related to the 
social, economic, and political welfare of our society.
    I am passionate about this because I believe that the 
realization of that promise is fleeting, and with every 
fleeting moment, I believe the impact on our society is 
devastating.
    At this point in time, I think that it has been now about 
five decades, a little better than five decades, since Brown. 
It has been over four decades since Title VI of the Civil 
Rights Act. It has been more than 16 years since Fordice. And, 
yes, much has been done to improve our historically black 
colleges, but nowhere near the amount that needs to be done to 
make us comparable to our white counterparts, nowhere near 
enough to make us as competitive in attracting students 
regardless of race and regardless of their academic achievement 
level.
    And so I think that there is now an urgency. There is an 
urgency about moving us toward that standard of comparability 
that we have been striving for for now over a half-century.
    In the State of Maryland, the demographics are moving so 
quickly that now you are seeing, as you saw in The Washington 
Post just a few days ago, about what the changing demographics 
are in our country, and just a few months before then, there 
appeared in the Sun paper of Baltimore a similar article. And 
we oftentimes talk about the relevance of that for our 
institutions of higher education.
    Well, those demographics are briefly saying to us that the 
minorities that we have so often spoken about are now very 
shortly going to be the majority, and those are the persons 
that are experiencing the greatest difficulty in terms of 
educational achievement and in terms of how they are able to 
move from the elementary, secondary level to the post-secondary 
level.
    Yet this is the pool, this is the pipeline from which this 
country will have to draw the workforce, and so we believe that 
it is imperative that we move to now ensure that these 
institutions that have served that minority population very, 
very well, that they now be made equal to and comparable to the 
majority institutions in our state and in our country.
    As I look at what is happening in our own State of 
Maryland--by the way, I am a native of Maryland. I went to 
elementary school there. I went to high school there. I got my 
undergraduate degree there before going on to the University of 
Pennsylvania. And so I have a long history with it.
    I was there in the 1960s when we were marching in the 
streets, marching to remove the separate but equal and for us 
separate and unequal, and it pains me now that even 50, almost 
60 years later that we still have not achieved that higher mark 
that we were striving for in the 1960s.
    But I want to emphasize here that I think that that promise 
is still before us. I think that that promise can be realized 
if, indeed, we can move within our states on some of the 
compact agreements.
    In the State of Maryland, we had a compact agreement--
several--but the last one lasting from 2000 to 2005, and after 
that, of course, the State of Maryland did, indeed, send a 
report in saying that we had, indeed, complied with all of the 
requirements of that. Later on, a group that represented the 
interests of our historically black colleges, the Maryland 
Coalition for Equity and Excellence in Higher Education, 
submitted a rejoinder questioning many of the positions in that 
document. We still are waiting to find out what the disposition 
is of: one, the agreement; two, the response of our state; and, 
three, the rejoinder that was submitted by the third party on 
behalf of our historically black colleges.
    You have heard from Congressman Sarbanes of Morgan's 
productivity within the State of Maryland, the largest producer 
of African-Americans, and we have heard the term over and over 
again ``African-American'' or we have the term ``historically 
black colleges''. Let me simply say you should not be 
uncomfortable with the term.
    Historically black colleges are designations, represents a 
fact of history and not a statement of exclusion. We are open 
to students regardless of race and, yes, the difference between 
our institutions and the other institutions is that, yes, we 
want some of the most talented students. We want as many as we 
can get. But within our community, according to the standards 
that are now used on SAT scores, that represents only 12 
percent to 15 percent of our students.
    And we happen to believe that you cannot just discard the 
other 85 percent, that we have to provide some way to move that 
other 85 percent to a level that they can be productive 
citizens, that they can, too, move through our elementary and 
secondary schools and then to our post-secondary schools and 
become the productive citizens that you want. We can make them 
the scientists and the engineers and the teachers and the 
professors, all of those things, but, indeed, it has to be 
under the circumstances that we provide to our students at our 
other institutions.
    So let me just sum up by saying, Mr. Chair, I think that 
our historically black colleges have done an excellent job over 
the years, and I think they hold great promise for these 
changing demographics if, in fact, we can have our institutions 
develop to a level of comparability and parity so that we are 
as competitive as other institutions in attracting students 
regardless of their race and regardless of their background and 
regardless of their academic achievement.
    Thank you so very much, Mr. Chairman, for the opportunity 
to speak.
    [The statement of Mr. Richardson follows:]

 Prepared Statement of Dr. Earl S. Richardson, President, Morgan State 
                               University

    Chairman Miller and distinguished members of the Committee, I am 
deeply honored to be a part of this panel and I thank you for the 
opportunity given me to share my thoughts and perspectives on the 
continuing efficacy of Historically Black Colleges and Universities as 
well as the continuing need for the federal government to oversee and 
enforce the effective compliance of the several states with applicable 
civil rights laws as pertaining to students especially served by these 
institutions. At this point and time in our nation's long, bloody 
journey towards equal justice under law and civil rights for all 
regardless of race and color--particularly with respect to equal 
educational opportunity--I can think of no more urgent matter for which 
this Committee should convene a hearing.
    As pertaining to public education, we are now 54 years into the 
implementation and enforcement of the mandate of Brown v. Board of 
Education, which implementation and enforcement, I might add, was to be 
done ``with all deliberate speed.'' While we would be disingenuous if 
we failed to acknowledge that significant progress has been made, we 
would also be irresponsible if we were to conclude that the promise of 
Brown has been fully realized--or even partially realized--for a vast 
number of low-income, minority students in this country, particularly 
in the South where segregation and discrimination on the basis of race 
was institutionalized by law. That unrealized promise is this: public 
education, ``where the state has undertaken to provide it, is a right 
which must be made available to all on equal terms.''
    With respect to public higher education in particular, we are also 
now 35 years past the seminal Adams v. Richardson cases seeking some 
sense of accountability from what is now the United States Department 
of Education, Office for Civil Rights, to enforce compliance of the 
states with Brown and other governing law, including Title VI of the 
Civil Rights Act of 1964, at the college and university levels. 
Moreover, we are 16 years past the landmark decision in United States 
v. Fordice imposing affirmative obligations on former de jure 
segregated states to dismantle their dual systems of higher education 
and eliminate the vestiges of segregation to the extent practicable. Of 
great significance here is the obligation of states, such as Maryland 
where I live and serve, to affirmatively act to remedy all policies and 
practices traceable to its prior system of segregated education and to 
eliminate any such present or continuing policies and practices that 
foster discrimination or perpetuate conditions indicative of the prior 
dual system.
    Again, I believe that most states can fairly report significant 
progress in some facets of dismantling their prior segregated systems. 
In other facets, however, progress has been painfully slow. And 
regrettably, in key areas there has been nothing short of recalcitrance 
on the part of states with respect to their affirmative obligations. 
Instead of progress in recent years, in some instances there has been a 
trending backwards. These areas include academic program development, 
operating budgets and facility upgrades where Historically Black 
Institutions remain less-developed, chronically underfunded and 
disadvantaged in the struggle to level the playing field in the 
competitiveness of all public colleges and universities in attracting 
students of varying academic achievement levels, backgrounds, race and 
ethnicity.
    Let me emphasize first, however, that in the face of continuing 
challenges, the value of Historically Black Institutions continues to 
rise in astounding ways, maximizing both the choice of students of all 
races who seek higher learning in their communities and the efficiency 
of public institutions that offer opportunities for higher learning on 
their behalf.
    In a public statement issued earlier this year, the presidents of 
Maryland's four Historically Black Institutions of Higher Education, of 
which Morgan State University is one, documented this value and the 
continuing relevance of these institutions in meeting the critical 
educational needs of the citizens of the State. For example, these 
institutions account for 64% of African American undergraduates 
enrolled in the State's public four-year institutions. That enrollment 
includes many high-achieving high school graduates as well as a 
significant number of students not eligible for admission to more 
selective institutions. The best prepared students enrolled at the 
Historically Black Institutions graduate at the same rates or better 
than similar students at other public institutions.
    The Historically Black Institutions also do remarkably well in 
graduating other students, though many are forced to drop out or stop 
out for a period of time because of unmet financial needs or other 
academic difficulties often related to their economic circumstances and 
the need to work full-time jobs. Reports of the Maryland Higher 
Education Commission clearly establish a direct correlation between 
unmet financial need and low retention rates.
    Moreover, the Historically Black Institutions have been productive 
beyond their enrollment percentages. In 2006, they accounted for 56% of 
the bachelor's degrees awarded to African Americans by traditional 
public four-year campuses, 49% of the master's degrees awarded to 
African Americans, and 55% of the doctorate degrees awarded to African 
Americans. In the critical fields of the sciences, engineering and 
education, the Historically Black Institutions awarded 52% of the 
bachelor's degrees in computer science awarded to African Americans by 
traditional public four-year campuses, 50% of the degrees in education, 
and 64% of the degrees in health fields.
    At the master's level, the Historically Black Institutions 
accounted for 35% of the degrees in computer science awarded to African 
Americans, 55% of the degrees in education, 60% of the degrees in 
health, and 44% of the degrees in engineering (with only one HBI 
awarding degrees in the discipline).
    The significance of the Historically Black Institutions in degrees 
awarded to African Americans is even more pronounced at the doctoral 
level where, in 2006, they produced 75% of the degrees in education 
awarded to African Americans by traditional four-year public 
institutions, 60% of the degrees in engineering, and 100% of the 
degrees awarded in the health fields.
    These outcomes in Maryland clearly demonstrate that the 
Historically Black Institutions serve a valuable mission and provide a 
unique contribution to educating the citizens of the State and nation 
in a manner that is not possible by relying alone upon the 
Traditionally White Institutions. The HBIs have great potential for 
educating students across the spectrum of academic achievement; 
however, their value is especially evident with respect to those low-
income, minority students who have been sorely underserved by public 
schools in their communities and who do not meet the criteria of the 
more selective public universities. To those isolated from educational 
and economic opportunity because of poverty and other socioeconomic 
circumstances, the Historically Black Institutions remain critical to 
the hope of finding opportunities to break through what otherwise might 
seem to be insurmountable barriers on the way to higher learning and 
enhanced opportunities to participate in the economies of their state, 
nation and world. Many of these students receive their opportunities at 
the Historically Black Institutions and thrive when the doors are 
opened to them.
    All of this substantiates the promise of developing a unitary 
system of education in our states, free of the stain of discrimination 
and segregation that officially beset us in the past and that will 
surely, if not fully remedied, thwart our progress into the future--a 
system where an excellent and equitable public education ``is made 
available to all on equal terms.''
    Despite their effectiveness, efforts to enhance Maryland's 
Historically Black Institutions have been slow and exceedingly limited. 
Each campus continues to grapple with operating budgets that, though 
increasing over the years, fail to close the historic funding gap 
between these institutions and the Traditionally White Institutions in 
the State. Each campus continues to have very serious capital needs for 
renovation and replacement of existing buildings, as well as new 
facilities and equipment. Each campus faces disadvantages in the 
development of high demand academic programs that are not unnecessarily 
duplicated at geographically proximate Traditionally White 
Institutions. All of which hinders their ability to attract new 
students and otherwise accomplish their significant roles and missions.
    Of great importance to addressing and resolving these remaining 
gaps and disparities is the fact that African Americans, Hispanics and 
other minorities now constitute the majority enrollment in Maryland's 
public elementary and secondary schools. These students represent, in 
large part, the pipeline from which the future workforce for the 
State's knowledge-based economy will be drawn. Sadly, this new majority 
also represents the greatest deficits in high school achievement as 
well as in bachelor's, master's and doctoral degree production. 
Addressing this condition must be among the highest priorities of the 
State and, because of their proven effectiveness--even in the face of 
great disparities and neglect--the Historically Black Institutions will 
continue to be invaluable assets and resources in meeting these 
challenges. It is absolutely counter to the State's best interests to 
limit or otherwise fail to enhance or develop these institutions. In 
doing so, the State would only limit choices, opportunity and access to 
higher education for African American, Hispanic and other minority 
students. It is long past time to maximize the human capital potential 
of all the citizens of our State through the enhancement of the 
Historically Black Institutions in a unitary system of higher 
education.
    We have confronted these challenges and fought these battles on 
many fronts over a period of several decades now. We have long pursued 
a course leading toward the legal and moral standard of comparability 
and competitiveness of the Historically Black Institutions and their 
Traditionally White counterparts through litigation, administrative 
oversight and enforcement, legislation and other means of advocacy and 
public policy. While State efforts to enhance the Historically Black 
campuses have made these institutions much better than they were 
decades ago, the institutions still are far short of achieving parity 
with the majority campuses, a major principle of federal desegregation 
law. In some states, including Maryland, federal oversight has failed 
to apply the enforcement necessary to bring the states into compliance 
with the applicable federal law. As a result, often in the face of 
recalcitrance by the states, disparities and problems remain. And 
comparability and competitiveness remain an elusive mandate which 
states are all too willing to ignore. Worse, the mere passage of time 
has become the justification for doing nothing more to achieve this 
parity. This simply cannot be acceptable.
    In 2008, the State of Maryland remains under the jurisdiction and 
oversight of the United States Department of Education, Office for 
Civil Rights, with respect to its equal educational opportunity 
obligations under federal law. This formal oversight began as early as 
1969 when what is now called ``OCR'' notified Maryland that it was one 
of ten states operating a racially segregated system of higher 
education in violation of Title VI and applicable federal desegregation 
law. Over a period of several years, Maryland worked toward the 
development of a plan for dismantling its discriminatory dual system 
and eliminating the vestiges of segregation. In 1976, however, after 
OCR advised Maryland of its concerns with the State's implementation of 
its plan, Maryland was granted an injunction prohibiting OCR from 
instituting enforcement action to terminate Maryland's federal 
financial assistance unless certain conditions were met. Negotiations 
between OCR and the State resumed over the development and 
implementation of a new desegregation plan, and a consent decree ending 
the litigation was entered in 1982.
    In all, formal plans or ``Agreements'' between OCR and Maryland 
were executed in 1980, 1985 and 2000. The 1985 plan was accepted by OCR 
as meeting the requirements of Title VI so long as the State 
implemented the plan in good faith. Its principle objectives were (1) 
the continued integration of Maryland's Traditionally White 
Institutions through a portfolio of enrollment goals, recruitment 
measures, retention efforts, and affirmative action plans, and (2) the 
enhancement of Maryland's Historically Black Institutions to ensure 
that they were comparable to and competitive with the Traditionally 
White Institutions with respect to operating budgets, capital 
facilities and new academic programs. The plan explicitly incorporated 
many of the provisions of the 1980 plan, including goals, commitments 
and measures in undergraduate accessibility, graduate and first-
professional accessibility, enrollment in specific disciplines in which 
African American students were underrepresented, student financial aid, 
employment, and representation on governing boards.
    While the State submitted annual reports to OCR through May 1991 
asserting compliance with the plan, OCR never conducted a compliance 
review or issued a ruling or notification as to whether Maryland had 
achieved good faith satisfaction of the plan and complete compliance 
with Title VI.
    In 1992, the Supreme Court issued its landmark United States v. 
Fordice decision setting forth the legal standards imposed on former de 
jure segregated systems of higher education. Subsequently, in 1994, OCR 
issued its Notice of Application of Supreme Court Decision applying the 
Fordice standards to all pending Title VI evaluations of statewide 
higher education systems with OCR-accepted desegregation plans that had 
expired, including Maryland. Included in the Notice was OCR's position 
that states may not place an unfair burden upon African American 
students and faculty in the desegregation process and that state 
systems of higher education may be required to strengthen and enhance 
their Historically Black Institutions. No evaluation, however, was 
conducted and it wasn't until 1999 that OCR initiated efforts with the 
State to establish a partnership for the purpose of improving the 
educational opportunities of African Americans in Maryland's public 
institutions of higher education and ensuring compliance with the 
State's obligations under Fordice and other applicable federal law, 
including Title VI and the progeny of Brown v. Board of Education.
    That Partnership Agreement, executed in 2000 for a stated period of 
five years, remains in place to date with little or no enforcement 
measures imposed upon the State by OCR. Also in place are the legal 
standards articulated in the Agreement and which form the basis for the 
Agreement, imposing affirmative obligations on the State to dismantle 
its prior dual system of higher education and eliminate the vestiges of 
segregation to the extent practicable, including present policies or 
practices traceable to the prior dual system that continue to foster 
discrimination or perpetuate segregated conditions indicative of the 
prior dual system.
    Of the several obligations and commitments of the State of Maryland 
set forth in the Partnership Agreement, of most significance are these: 
(1) developing high-demand academic programs at the Historically Black 
Institutions and ensuring that they are not unnecessarily duplicated at 
nearby institutions--thereby expanding mission and program uniqueness 
and institutional identity at the Historically Black Institutions; and 
(2) designing and implementing measures which ensure that the 
Historically Black Institutions are comparable to and competitive with 
the Traditionally White Institutions in all facets of their operations 
and programs.
    Each commitment is firmly grounded in governing federal law and set 
forth in detail sufficient to accomplish the stated task and ensure 
compliance with such law. Each commitment is set forth to ensure that 
the Historically Black Institutions are enhanced and empowered to 
provide equal opportunity for a quality education to all students who 
choose to attend them and to enable them to compete for and be 
attractive to students regardless of race. As may be necessary, these 
commitments include enhancing: the distinctiveness of the Historically 
Black Institutions' programmatic missions; the uniqueness and mix of 
quality academic programs that are not unnecessarily duplicated at 
proximate Traditionally White Institutions; operational funding 
consistent with the mix and degree level of academic programs, support 
for the development of research infrastructure, and support consistent 
with the academic profile of students; lower student-faculty ratios 
appropriate to support their missions; the expanse, functionality and 
architectural quality of physical facilities; the appearance, 
attractiveness and ambiance of campus and surrounding public 
infrastructure, including roads, lighting and public transportation; 
and funding to support students' quality of campus life.
    In no instance, however, has the State been held to demonstrate 
implementation of either or any of these commitments, nor has the State 
been reviewed as to its compliance with its obligations under the 
Agreement and governing federal law. It is my position, based upon a 
substantial record, that in large measure the State has yet to meet its 
obligations under the Agreement and, in fact, that it has affirmatively 
acted, in some instances, in violation of its obligations under the 
Agreement and applicable law. Documented instances of unnecessary 
duplication of academic programs are noted, in particular.
    In light of these circumstances and due, at least in part, to the 
lack of enforcement activities on the part of OCR, the Historically 
Black Institutions and other interested or affected parties are, in 
essence, forced to pursue relief in other venues, including courts and 
legislatures. An institution's options to pursue a judicial remedy, 
however, are extremely limited and, in some instances, are non-existent 
without the enactment of legislation authorizing the pursuit of 
judicial review. This has prompted the repeated proposal of legislation 
in the Maryland General Assembly over the past three years that would 
allow a Historically Black Institution to seek judicial review of 
decisions of the State, through the Maryland Higher Education 
Commission, approving the unnecessary duplication of existing programs 
at the institution by a geographically proximate Traditionally White 
Institution. In each instance to date, the legislation has failed to be 
enacted. This leaves the State's decision making process for the 
approval of academic programs without a judicial check, even though 
such decisions are to be made within the context of governing State and 
federal civil rights laws.
    At least one private coalition has filed a law suit in federal 
district court to challenge the State's decisions, actions or non-
actions with respect to the unnecessary duplication of academic 
programs and other obligations under the OCR Partnership Agreement and 
applicable State and federal law. But the Historically Black 
Institutions themselves are left without a remedy to pursue. This only 
serves to underscore the significant and detrimental impact of OCR's 
non-enforcement activities upon Historically Black Institutions and the 
students who choose to attend them. It is a profoundly disturbing 
problem that needs to be addressed.
    OCR's failure to act also opens the door for the State to attempt 
to address related issues through other political measures that may or 
may not give deference to the existing obligations set forth in the 
Partnership Agreement. For example, the Maryland General Assembly has 
recently created the Commission to Develop the Maryland Model for 
Funding Higher Education. The Commission has determined that it will 
attempt to define what it means for a Historically Black Institution to 
be comparable to and competitive with a Traditionally White Institution 
and what it might take to achieve that status from a budgetary point of 
view. While there is potential for progress from such an endeavor, the 
Historically Black Institutions remain concerned that the Commission's 
analysis of the issue is going forth without a clear commitment to 
define the task under the Partnership Agreement and within the 
parameters of the specific obligations of the State of Maryland under 
federal civil rights law. At the very least, it is an attempt by the 
State to fill the void caused by OCR's failure to enforce the terms and 
conditions of the Agreement or to conduct a meaningful review of the 
State's compliance with federal law.
    These are just some of the issues I wish to bring to your attention 
today. I am hopeful that my thoughts and perspectives are of some help 
to the important work of this Committee. In summary, I emphasize the 
remarkable and, at times, immeasurable value of the Historically Black 
Institutions and their continuing validity in this nation's long 
struggle for equal educational opportunity and excellence in education 
for all of its citizens. I also emphasize the significant need for 
active and continued oversight from the federal government, enforcing 
upon the states compliance with their obligations under federal law. In 
the end, OCR can and must be a much more effective means by which any 
continuing policy or practice that fosters discrimination or 
perpetuates conditions indicative of the prior dual systems of higher 
education are eliminated root and branch and by which the Historically 
Black Institutions are, at long last, made comparable to and 
competitive with their Traditionally White counterparts.
    Thank you for your consideration. I am happy to respond to any 
questions or otherwise provide you with further information.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Pierce?

 STATEMENT OF RAYMOND C. PIERCE, DEAN, NORTH CAROLINA CENTRAL 
                           LAW SCHOOL

    Mr. Pierce. Thank you, Mr. Chairman.
    As you mentioned in your introduction, I am currently the 
dean of the School of Law at North Carolina Central University 
School, one of only four historically black law schools 
accredited by the American Bar Association and created during 
the days of apartheid and segregation.
    Prior to becoming dean of the law school, I served as the 
politically appointed Deputy Assistant Secretary of Education 
in the Office of Civil Rights from 1993 to 2000.
    Clearly, one of the first pressing matters that faced the 
Office of Civil Rights at the Department of Education at that 
time was the recent decision by the United States Supreme Court 
some 4 or 5 months earlier in the Ayers v. Fordice case that 
was mentioned by Dr. Richardson. In that case, the United 
States Supreme Court set a new standard with respect to state 
compliance with the equal protection clause of the United 
States Constitution as it relates to the education of African-
Americans attending historically black colleges and 
universities, not just in the State of Mississippi but 
throughout the country.
    The concern expressed by presidents of historically black 
colleges, universities, and civil rights organizations was what 
would be the Clinton administration's and the Department of 
Education's response to that Supreme Court decision. In light 
of the fact that the country had been within a higher education 
desegregation docket, an effort of higher education 
desegregation docket, going back to the 1970s, it involved all 
19 states of the United States of America that have publicly 
supported historically black colleges and universities.
    We took that Supreme Court decision and basically upgraded 
the federal policy on higher education desegregation as to 
reflect what the United States Supreme Court said, which was 
basically that states have an affirmative duty to remove all 
vestiges of the past practice of segregation to the greatest 
extent practical that have a present-day effect.
    Up to that time, we were operating under the old 1978 
higher education desegregation policy, which basically was a 
two-part policy designed to remedy the past practice of 
segregation by enhancing and strengthening historically black 
institutions to provide them with educational opportunities 
that heretofore had been constricted because of days of 
apartment and segregation.
    With the new policy, the Office of Civil Rights then went 
forward to enforce that policy by addressing those states that 
still had outstanding Title VI violations. Understand, Mr. 
Chairman, you have seven states right now in this country that 
are continuing to receive federal dollars for educational 
purposes, higher education, that are operating with outstanding 
Title VI violations, Title VI meaning that law that prohibits 
discrimination on the basis of race, color, or gender, and 
entities receiving federal funds.
    I would question whether if there was a state in this 
country receiving federal funds for environmental purposes and 
yet that state was in violation of federal environment 
protection laws if that state would still be able to receive 
federal funds for its environmental purposes, but that is what 
you have going on here in our country.
    By the time we left the Department of Education in 2000, we 
had successfully negotiated a settlement agreement with all the 
remaining states, consistent with the new policy, settlement 
agreements that included some hundreds of millions of dollars 
of increased funding, educational programs, partnership 
agreements, quite a number of items that had been, for the most 
part, cooperatively entered into with the states and the 
federal government.
    Unfortunately, at the conclusion of our administration, it 
did not take long at least for me to begin to hear calls and 
cries that states were retreating from those commitments, so 
much to the point where you probably have a clear case of 
breach of contract between the federal government and states 
that had committed to do certain things to bring their states 
in compliance with Title VI of the 1964 Civil Rights Act and 
address all concerns as enunciated by the Supreme Court with 
respect to the equal protection clause of the United States 
Constitution.
    The NAFEO group that has its summit here today asked our 
law school, the North Carolina Central University School of 
Law--by the way, one of your members is a proud graduate of our 
law school. That is Congressman G.K. Butterfield.
    NAFEO asked our law school if we would examine the current 
state of the law to determine whether or not litigation could 
be brought against the federal government Office of Civil 
Rights to make the Office of Civil Rights enforce its own 
compliance agreements, understanding that that was what was 
done back in 1977 to cause at that time the Department of 
Health, Education, and Welfare to get its Office of Civil 
Rights to actually enforce higher education desegregation 
policy. Our thought was that that would have to be done again. 
Unfortunately, unfavorable decisions going back to 1989 and 
going forward have now made that difficult, almost impossible.
    I believe that the Office of Civil Rights at the Department 
of Education has some outstanding career employees. I worked 
with them. I supervised them. I hired many of them. But it is 
clear to me that the last enforcement of federal civil rights 
policy at the Department of Education is an agenda. It is 
because it is not high on the list, the action is not one 
appreciated, and therefore states are beginning to retreat from 
not only their commitments, but also engage in educational 
policies that are, quite frankly, adverse to the health and 
wellbeing of historically black colleges and universities.
    And, Mr. Chairman, I would ask that not only my testimony 
here, but the statements of this panel which reference many 
documents that are contained in these appendices, be admitted 
to the record.
    Thank you.
    [The statement of Mr. Pierce follows:]

  Prepared Statement of Raymond C. Pierce, Dean and Professor of Law, 
            North Carolina Central University School of Law

    Good morning. My name is Raymond C. Pierce and I currently serve as 
Dean and Professor of Law at North Carolina Central University School 
of Law. Our law school is one of four remaining Historically Black Law 
Schools accredited by the American Bar Association that were created 
during the era of segregation. Our Law School received a grant from 
NAFEO to examine certain issues affecting Black Colleges within the 
context of the law and Federal education policy.
    Prior to becoming Dean of the law school I had earlier served in a 
political appointment as Deputy Assistant Secretary for Civil Rights at 
the United States Department of Education from April 1993 through 
August 2000. My primary role was in policy development and enforcement 
of federal civil rights laws in education.
    Clearly the first and most pressing issue that was presented to the 
Office for Civil Rights (OCR) upon my arrival to Washington was the 
question of what would be the federal government Department of 
Education's reaction to the then recent 1992 U.S. Supreme Court 
decision in Ayers v Fordice. The Ayers case had been decided seven 
months earlier on a Fourteenth Amendment Equal Protection issue on the 
state of Mississippi's obligation to remedy remaining vestiges from the 
past practice of segregation in higher education as they presently 
impacted African Americans attending the state's Historically Black 
Colleges.
    Some initial reactions to the Supreme Court decision that I recall 
attributed to the state of Mississippi included suggestions that the 
state could close all of the Historically Black Colleges as a method of 
resolving any continuing vestiges of the practice of segregation. Black 
College leadership nationwide was understandably concerned that state 
systems of higher education would retreat further from obligations and 
commitments to Black Colleges and advance more state policies adverse 
to these institutions. During the 1970's all 19 states with publicly 
supported Black Colleges created during segregation were involved in 
investigations and/or litigation involving federal higher education 
desegregation efforts. In many of these instances litigation had been 
initiated by private citizens seeking equal educational opportunities 
for African Americans.
    The result was fifteen states entering into settlement agreements 
with OCR involving plans designed to remedy vestiges of segregation and 
bring compliance with Title VI of the 1964 Civil Rights Act as it 
applied to states with federally funded programs in higher education. 
Five other states were unable to reach agreement and proceeded to 
litigation with Mississippi going all the way to the United States 
Supreme Court. In 1989 the U.S. Department of Education concluded that 
eight of the fifteen states that had earlier entered into settlement 
agreements had now reached compliance with federal civil rights laws. 
Against protests from many Black College Presidents, these eight states 
were released from federal higher education desegregation oversight. 
These states were: Arkansas, Missouri, Oklahoma, Georgia, South 
Carolina, North Carolina, West Virginia and Delaware. Six states 
remained under federal oversight and were held responsible for 
continuing adherence to the settlement agreements and the compliance 
plans designed to remedy the vestiges of segregation. These states 
were: Kentucky, Pennsylvania, Maryland, Virginia, Florida and Texas.
    In early 1993 and in response to the concerns expressed by Black 
College Presidents and civil rights and other civic organizations, OCR 
began a development process that ultimately produced new federal civil 
rights policy on higher education desegregation and Title VI which 
prohibits discrimination in federally funded education programs. This 
new policy was published in early 1994 as a Notice in the Federal 
Register. The basic foundation of the policy was that states have an 
affirmative duty, to the greatest extent practicable, to remove all 
vestiges of the past practice of segregation that have a present day 
effect.
    The foundation of the policy was drawn from the majority opinion of 
the Supreme Court in the 1992 Ayers case. In addition the new policy 
built upon earlier federal education higher desegregation policy 
published in 1978 which was titled: Revised Criteria for the 
Desegregation of State Systems of Higher Education. That policy was 
composed primarily of two elements. One: the strengthening of Black 
Colleges through increased resources for upgraded and additional 
educational programming. Two: affirmative action programs in 
recruitment of African American students to attend Traditionally White 
Institutions and recruitment of White students to attend Black 
Colleges. The first part was designed to address the constricted 
educational opportunities of African Americans attending Black Colleges 
due to years of discriminatory treatment by state systems of higher 
education in violation of the Fourteenth Amendment Equal Protection 
Clause. In addition the policy of strengthening Black Colleges was also 
designed to remove distinctions of quality of educational opportunity 
between Black colleges and White Colleges and allow for attracting 
students more on the basis of programming and less on the basis of 
race.
    It is important to note that the earlier 1978 policy was developed 
as a result of litigation brought against OCR and the U.S. Department 
of Health, Education and Welfare for failing to enforce federal civil 
rights laws. That litigation resulted in the 1977 U.S. Court of Appeals 
decision in Adams v Caliafano.
    The new policy following the 1992 Ayers case added a ``vestiges 
analysis'' to the standard by which states would be measured for 
compliance with Title VI. This meant that states efforts towards 
compliance through increased resources and other actions on behalf of 
Black Colleges would be examined to determine whether following such 
efforts there are any remaining vestiges from the past practice of 
segregation that have a present day effect on the educational 
opportunities of African Americans that could be practicably 
eliminated.
    In 1994, and immediately after the new policy was published the six 
states that remained under federal oversight were notified that they 
would be reviewed for compliance pursuant to the new policy and that 
they may be required to take action in addition to that articulated in 
the earlier settlement agreements.
    Ohio had not been one of the states entering into one of the 
earlier settlement agreements during the 1970s and early 1980s and had 
been amongst those states headed for litigation in the federal courts. 
After the 1994 publication of the Ayers v Fordice Notice in the Federal 
Register, OCR and the U.S. Department of Justice agreed to remove Ohio 
from the litigation list allowing OCR to pursue efforts for a 
settlement agreement with the state.
    From 1995 to 2000 following extensive reviews, discussions and 
negotiations all seven states (including Ohio) entered into new and 
mostly five year compliance agreements designed to resolve the federal 
government's docket of higher education desegregation cases. These new 
compliance plans addressed many new and enhanced educational programs 
for Black Colleges and commitments of additional recourses. Each state 
was notified that OCR would conduct compliance reviews following the 
expiration of the term for implementation of the plans. Again, most of 
these plans were designed to be implemented over a five year period.
    At this date all of the settlement plans have expired and to my 
knowledge OCR has not concluded any review to determine whether the 
efforts of these states have resulted in compliance with Title VI.
    Since leaving OCR I have repeatedly been made aware of grave 
concerns expressed by Black College Presidents and alumni regarding 
actions by states in recent years that are adverse to the letter and 
spirit of federal desegregation policy and the various settlement 
agreements. I hear of these concerns mostly in Ohio and Maryland 
centering around issues of unnecessary program duplication and 
inadequate funding for institutional mission. Actions in these two 
states and others are largely regarded by those concerned as posing 
significant threats to the ability of Black Colleges to be competitive 
in higher education. Further, there has never ceased to be concerns of 
unequal treatment of Black Colleges expressed by Black College 
leadership in some of the eight states that were found in compliance in 
1988 prior to the development of the new policy in 1994.
    The National Association for Equal Educational Opportunity (NAFEO) 
awarded a grant to North Carolina Central University School of Law to 
examine these issues and the law with regard to possible new litigation 
similar to that in the Adams v Caliafano case that could result in 
moving OCR to perform its Congressionally mandated duty of enforcing 
federal civil rights laws in education in particular as they relate to 
the seven states with remaining outstanding Title VI violations.
    Initially I held a position that their remained a basis for 
litigation against OCR for failure to enforce federal civil rights laws 
similar to the charge brought against OCR in the Adams v Caliafano 
case. Research at NCCU School of Law concluded that federal court 
decisions subsequent to Adams will no longer allow legal action against 
a federal agency as it was done in the 1970's that resulted in moving 
OCR to take action to enforce federal civil rights laws that would 
benefit Black Colleges.
    The reality of federal court decisions having left no avenue for 
pursuing litigation against OCR presents these hearings as ever more 
critical in halting state actions that would negatively impact public 
Black Colleges unnecessarily. It is also before this Committee as to 
what is the reaction by Congress towards a Department of Education that 
continues to appropriate federal funds to state systems of higher 
education that are operating in violation of federal education civil 
rights laws as determined by OCR. OCR must be called upon to conduct 
the long overdue reviews and analysis and make the determinations as to 
compliance for the remaining seven states. Whether such analysis will 
result in additional resources for the effected Black Colleges or a 
determination of compliance, some movement by the federal government is 
required to bring closure to its docket of higher education 
desegregation cases that stretches back over thirty plus years.
    A point with respect to the leadership made available to Black 
Colleges through the involvement of state systems of higher education. 
Outstanding men and women have served and continue to serve our 
Nation's Black Colleges. Many in this leadership have produced near 
miraculous results in their mission of educating students. However, it 
is my belief that the numbers of talented education leaders currently 
on these campuses is too low for the demand. It has been my observation 
during and after my seven years of directing federal higher education 
desegregation efforts that Black Colleges suffered greatly from a loss 
of talent as a result of affirmative action that attracted many Blacks 
in higher education away from Black Colleges and into positions at 
Traditionally White Colleges. This loss of talent in addition to 
continued policies adverse to Black Colleges in my opinion have caused 
harm to these institutions leaving many of them in weakened conditions 
lacking the ability to effectively compete in higher education.
    State higher education commissions must review their relationships 
and policies towards Black Colleges with a view of improved 
expectations and improved treatment in the selection of leadership at 
both the college and on the board. There can be no room for disparity 
in the quality of appointments by states made at Historically Black 
Colleges in comparison to White Colleges. Indeed, given the continuing 
harm from years of differential treatment of Black Colleges it is 
imperative that states apply the highest of standards in making 
appointments to the leadership and management of Black Colleges no less 
than those appointed to the leadership of Traditionally White Colleges.
    OCR should be able to conclude its higher education desegregation 
docket. It should result in further enhancement and strengthening of 
Black Colleges. State higher education commissions must reach a level 
of full and comparable inclusion for Black Colleges. I believe this 
will be a major step towards concluding the federal government's 
oversight of these cases.
                                 ______
                                 
    [The report prepared for NAFEO follows:]

  Report Prepared for NAFEO, by the North Carolina Central University 
                             School of Law

    An analysis of the current state of federal policy and case law 
relative to potential legal actions on behalf of Historically Black 
Colleges in the era after the U.S. Supreme Court decision in Ayers v. 
Fordice.
I. Procedural Background
    In 1969 and the early 1970s, the Department of Health, Education 
and Welfare (HEW) found that 19 southern and border states had violated 
Title VI of the Civil Rights Act of 1964 (Title VI) based upon their 
failure to dismantle their previously segregated systems of public 
higher education. During the 1970s, based, in part, upon HEW's failure 
to ensure that these states corrected their Title VI violations, the 
Federal District Court oversaw the Federal government's efforts. (See 
more detailed discussion re Adams litigation, supra, section II.)
    As a result of the oversight by the Federal courts and a number of 
district court orders, HEW (and later the Department of Education's 
(ED) Office for Civil Rights (OCR)) entered into a number of statewide 
desegregation plans. The states' obligations under these plans were to 
take affirmative steps to eliminate de jure and de facto segregation. A 
particularly important aspect of each plan was to recognize the 
historical importance of traditionally and historically black 
institutions (HBCUs) in meeting the educational needs of black students 
in those states. The court instructed HEW (and later ED) to ensure that 
the transition from a dual system to a unitary one would not be 
accomplished by placing a burden upon black students, faculty or 
institutions. Consistent with this requirement, HEW/ED required that 
all statewide desegregation plans have specific commitments to enhance 
their HBCUs.
    Enhancement of state HBCUs included increasing institutional 
resources--facilities, course offerings, faculty, etc. * * * 
Particularly important was the requirement that the states take 
specific steps to eliminate educationally unnecessary program 
duplication between HBCUs and traditionally white institutions in the 
same service area. The objective of eliminating program duplication and 
increasing institutional resources was to enhance desegregation by 
ensuring that the HBCUs were on par with the traditionally white 
institutions so that all students would be drawn to institutions on the 
basis of their program offerings, faculty, etc. and not on the basis of 
race. The states were required to desegregate while ensuring that they 
did not do so at the expense of the HBCUs. (See ``Revised Criteria 
Specifying Ingredients of Acceptable Plans to Desegregate State Systems 
of Higher Education'' 1978, attached.)
    Throughout the late 1970s and 1980s, HEW and later ED monitored the 
implementation of statewide desegregation plans received from a number 
of states. HEW/ED referred those states that refused to enter into 
agreements that remedied the Title VI violations to the Department of 
Justice (DOJ) for enforcement [One of the states that was referred to 
DOJ was Mississippi, the litigation that followed that referral 
eventually reached the Supreme Court. United States v. Fordice, 505 
U.S. 717 (1992.)]
    By the late 1980s, OCR determined that a number of the states had 
fulfilled their statewide desegregation plans and released them from 
further monitoring. OCR, however, determined that some states, even 
though their agreements had expired, had continuing obligations to 
address the Title VI violations found.
    In 1994, based upon the Supreme Court's decision in Fordice, ED OCR 
informed the states that had not been previously released from 
monitoring (Florida, Maryland, Pennsylvania, Kentucky, Texas, and 
Virginia) that it would be reexamining their state higher education 
systems consistent with the standards enunciated in the Fordice 
decision to ensure that the vestiges of their previously segregated 
systems had been eliminated. [See Notice of Application of Supreme 
Court Decision, 1994 (Fordice Notice) attached.] Consistent with the 
Supreme Court's decision in Fordice, OCR informed those states that 
they could not place unfair burdens upon black students and faculty 
when initiating desegregation efforts. Additionally, OCR stated that 
the results of its reexamination might well require enhancement of the 
HBCUs. Between1996 and 2001 OCR entered into new agreements with each 
of those pending states and the State of Ohio (ED had referred Ohio's 
Title VI violation to the Department of Justice in the 1980s but a 
lawsuit was never filed.) A major component of each agreement was the 
enhancement of the HBCUs. While some of the pending agreements have 
expired, none of these states has been released from OCR's monitoring.
II. Legal Background
    Section 601 of Title VI provides that ``No person * * * shall, on 
the basis of race * * * be excluded from participation in, be denied 
the benefits of, or be subjected to discrimination under any program or 
activity receiving federal financial assistance.'' HEW/ED's regulation 
enforcing Title VI, at 34 CFR 100.3(b)(6)(i), requires that ``In 
administering a program regarding which the recipient has previously 
discriminated against persons on the basis of race. * * * the recipient 
must take affirmative action to overcome the effects of prior 
discrimination.''
    Under complaint procedures established by HEW and later adopted by 
ED, once OCR investigates and determines that there is a violation, the 
agency must take compliance efforts to ensure that Federal monies do 
not support discrimination. The ultimate sanction by the agency, if a 
voluntary resolution to remedy the violation is not achieved, is 
termination of federal assistance.
    It is beyond dispute that these southern and border states violated 
Title VI. All had previously de jure or de facto segregated systems of 
public higher education. All have been found, by the agency charged 
with enforcing Title VI, to have violated both the statute and the 
regulations, by intentionally creating, maintaining, and failing to 
eliminate the effects (vestiges) of their prior systems. All were 
required to take affirmative obligations to overcome their prior 
intentional discrimination and had not done so.
    In 1970, a private complaint was filed in Federal district court 
against HEW and the Attorney General for adopting a policy of non-
enforcement of Title VI. Without addressing directly the issue of a 
private right of action against the Federal government under Title VI, 
the court granted plaintiffs' prayer for declaratory and injunctive 
relief. Adams v. Richardson, 356 F.Supp. 92 (D.D.C. 1973). The court's 
oversight to ensure that the agency remedy its failure to enforce Title 
VI was later expanded to include Title IX of the Education Amendments 
and Section 504 of the Rehabilitation Act. The court orders and 
supervision that followed became known as the Adams Orders. In effect, 
those Orders placed the agency's investigative and enforcement 
activities and policies under federal court supervision for almost 20 
years. One aspect of the court's broad oversight concerned ED/OCR's 
failure to ensure that the states remedy the discrimination that the 
agency had found in the states' public higher education systems.
    In 1979, the Supreme Court in Cannon v. University of Chicago, 441 
U.S. 677 (1979), held that there was an implied private right of action 
under the civil rights statutes against federal fund recipients who 
engaged in prohibited discrimination. Cannon, without deciding an issue 
not squarely before it--a private right of action against a federal 
agency--did caution against extending this private right of action to 
suits against federal agencies, absent specific legislative intent.
    Almost 11 years after the decision in Cannon, the US Court of 
Appeals for the DC Circuit affirmed the district court's dismissal of 
the Adams litigation based, in part, on the Cannon decision. In Women's 
Equity League v. Cavazos et al., 906 F.2d 742 (D.C. Cir. 1990) (one of 
the string of cases referred to as the Adams cases) the appellate court 
stated that while Cannon confirmed an implied private right of action 
against recipients of federal financial assistance it ``pointed the 
lower courts away from the implication of discrete, broad-gauged rights 
of action against federal enforcement agencies.'' at 746. The court 
found that its oversight of ED/OCR's program, under the original Adams 
Orders and their progeny, was in fact a continuing across the board 
supervision of a federal agency. It, therefore, dismissed the cases and 
released ED/OCR from oversight. However, the court left open the door 
to a private right of action against a federal agency if the case was 
``situation specific,'' i.e., based upon a particularized finding of a 
violation against a recipient and the agency's failure to ensure 
compliance and continued funding of such recipient. at 748-49. See 
also, Young v. Pierce, 628 F.Supp. 1037 (cite) in which the district 
court stated that a private action under Title VI could be sustained 
against the Department of Housing and Urban Development when there was 
a showing that the agency had actual knowledge of segregation and 
continuing providing financial assistance to the discriminating entity.
    In 2001, the Supreme Court again addressed the issue of a private 
right of action against a recipient of federal financial assistance. In 
Alexander v. Sandoval, 532 U.S. 275 (2001) the Supreme Court affirmed 
its holding in Cannon that there is a private right of action under the 
civil rights statutes. However, it clarified the standard for 
sustaining such action and held that the discrimination must have been 
found to be intentional and actionable under the statute.
III. Next steps
    As discussed above, seven statewide systems of higher education 
entered into statewide agreements with OCR since the Supreme Court's 
decision in Fordice. While some of these states' agreements have 
expired, none of these states have been released from OCR's oversight 
nor have they been informed that they have remedied their long-standing 
Title VI violations.
    The first issue to be addressed is whether a private right of 
action may be maintained consistent with the Supreme Court's decisions 
in Cannon and Sandoval. As discussed above, the Supreme Court in those 
two cases found that a private right of action was available against a 
federal fund recipient that had intentionally discriminated. It is 
without dispute that the statewide higher education systems that have 
been found in violation of Title VI intentionally maintained those de 
jure or de facto systems of higher education. They have not been 
released from monitoring and have a continuing obligation under the 
Fordice decision, Title VI, and the Revised Criteria to eliminate the 
vestiges of their previously segregated systems. Therefore, it is 
breaking no new ground to assert a private right of action against one 
or all of these states. A more difficult issue is sustaining a private 
action against ED/OCR. In order to survive a motion to dismiss under 
the appellate decision in Women's Equity League, supra, any action 
would need to be considered situation specific rather than a broad 
based attempt to oversee the agency's actions.
            1. Private legal action against state recipients
    As discussed above, ED/OCR continues to monitor agreements with the 
states of Virginia, Florida, Kentucky, Maryland, Pennsylvania, Texas, 
and Ohio. While all of these agreements were premised upon the 
uncorrected Title VI violations, no state received a new violation 
finding. The states' present compliance was evaluated consistent with 
Fordice as discussed in the Fordice Notice.
    Many of the agreements are identified as ``Partnership 
Agreements.'' The agreements vary in nature, one includes issues that 
were not raised by the earlier Title VI finding (Florida), one 
agreement is based upon an exchange of letters rather than a signed 
agreement (Ohio), some are quite general in nature (Maryland, Kentucky, 
Pennsylvania), and two are specific as to the commitments required 
(Virginia and Texas.) The one issue addressed in all of the agreements 
was the enhancement of the HBCUs consistent with the standards 
established in Fordice and the Revised Criteria.
    To proceed against any or all of these states, the premise of the 
action would be the unresolved and unremedied Title VI intentional 
discrimination finding. Because of the nature of the agreement and the 
areas addressed, an action against Florida would be the least 
sustainable. Actions against the other six states would most likely 
survive motions to dismiss. However, a number of these states have 
already or are actively addressing the commitments made to ED/OCR. 
Based upon recent actions and reports, Maryland appears to be one state 
that has not done so. Therefore, a private action taken against 
Maryland would appear to have the best potential for success.
    A caveat to any action is that any of the states could argue that 
the Title VI violation was found more than 30 years ago and that the 
passage of time breaks the nexus upon which a continuing vestiges 
violation is based. None of the pending agreements have either a 
finding of a present violation or an admission by the state(s) of a 
continuing legal obligation based upon previous discrimination.
            2. Private legal action against ED/OCR
    In order to pursue a private action against ED/OCR, the court's 
guidance in Women's Equity Action League should be followed. The action 
should be situation specific and should evidence a clear showing of 
non-enforcement by ED/OCR. It is arguable as to whether a decision to 
assert an action against OCR for its failure to enforce all seven of 
the pending statewide higher agreements would meet the standards of 
specificity. Therefore, prudence would dictate selecting one or two of 
the state agreements upon which to base this ``situation specific'' 
claim against ED/OCR.
    The premise of the Title VI claim would be the same as that taken 
against a state entity. OCR would be found to have intentionally 
violated Title VI by failing to take enforcement action against a 
recipient of federal financial assistance that has not remedied its 
Title VI violation, while allowing federal funds to continue to flow 
and support such discrimination.
    All of the caveats that apply to the state actors would also apply 
to any action taken against OCR. In all likelihood, the appropriate 
``situation specific'' recipients for a private right of action against 
OCR would be one or more of the states identified above as a candidate 
for private legal action directly. * * * Additionally, in the case of 
Maryland, OCR is apparently ``on notice''--from the very experts relied 
upon by the Fordice court and chosen by OCR to evaluate Maryland's 
compliance with its present agreement--that there has been a failure to 
implement the agreement and, therefore, to remedy the underlying civil 
rights violation.
            3. Congressional oversight
    It is important to recognize another avenue for ensuring that both 
ED/OCR and the states continue to meet their obligations--the bully 
pulpit. At any oversight hearing, a very sympathetic case can be made 
that there is unfinished civil rights business, the dismantling of 
previously segregated higher education systems and the commitment to 
recognize the importance of and enhance HBCUs. In this effort, the 
White House Initiative on HBCUs would be an important partner. As 
discussed above, mounting a successful legal action is a challenge. 
There is no similar challenge to the reality of HBCUs roles in 
educating a large number of black students--not only historically, but 
today. The states and ED/OCR obligations to ensure that students who 
attend HBCUs receive a quality education, free of the vestiges of 
discrimination, would be difficult to challenge in this arena.
                                 ______
                                 
    [The NAFEO 33rd Annual National Conference on Blacks in 
Higher Education report, submitted by Mr. Pierce, may be 
publicly viewed in its entirety at the Committee's office, 2181 
Rayburn House Office Building.]
                                ------                                

    Chairman Miller. Without objection, we will make them part 
of the record of this hearing.
    Thank you very much. Thank you all for your testimony.
    One of the items that I mentioned in my opening statement 
was the incredible contribution of historically black colleges 
to our teacher corps in this country, and it is near and dear 
to my heart.
    As we struggle with the reauthorization of No Child Left 
Behind, I think it is very clear to those of us on both sides 
of the aisle that we are in desperate need for this next 
generation of teachers to have great capacity to teach students 
at a depth and at a breadth that we are not doing today so that 
they will have the ability, those students.
    We just met with several dozen CEOs from the high-tech 
industry yesterday with the Speaker talking about their 
educational needs, and they made it clear again, as best I can 
put it, that they are going to need graduates of college and of 
high school who can work across their company, across the 
country, and across the continent with the most diverse 
workforce in the history of the world serving the most diverse 
customer base in the history of the world, and this takes a lot 
of skill and a lot of talent and a lot of depth of 
understanding.
    And as much as we recognize that technology is changing the 
world, it also can change the classroom, and to now have 
teachers that are skilled in the use of technology as we look 
at different kinds of assessments, of informative assessments, 
of the ability to have the classroom experience the Internet, 
broadband, we now need this generation to really be skilled in 
that field.
    And, Dr. Yancy, you mentioned that you are a laptop 
university. So I assume students are learning some of that, but 
I just wonder how you see teachers now coming to the classroom 
prepared for really the maximum utilization of technology in 
that education.
    Ms. Yancy. So teachers have to have access to technology. 
They do not have any choice. The students who are coming in to 
the public school system or private schools, wherever they are 
coming from, come knowing how to deal with all kinds of 
gadgets.
    We have had the laptops since 2000, and we have been fully 
wired. The problem here is the cost of the infrastructure. I 
mean, we have had to pay to upgrade infrastructure twice at 
Johnson C. Smith. We have students who do not have money, and 
so we lease our computers.
    You were talking about leasing textbooks, Congressman 
McKeon, and we have leased laptops, and we have made it 
available to everyone.
    But there is a problem within the teacher education that is 
not always talked about. The NCATE accreditation process is 
very explicit. Nobody wants to talk about that. When they come, 
they come in large teams. You have the state. You have the 
national group coming all together. And we have all these 
students that we have to prepare for the library, et cetera.
    But then the problem that we have is encouraging the best 
and the brightest to go into teacher education because the 
salaries are so low for them to go out and teach. You know, you 
come out of school owing lots of money, having alternative 
loans, you already work two and three jobs just to get through 
college, and then someone wants you to work for $25,000, 
$28,000 a year.
    So what you have is the best and the brightest going to the 
best bidders sometimes, even when they have majored in teacher 
education. So it is not that we are not providing what they 
need to become great teachers and be diverse and being able to 
deal with all kinds of folks, think critically, and go in and 
just hit the ground running as teachers. You are going to lose 
them to corporate America who have no problem stealing the best 
and the brightest.
    Chairman Miller. I have no problem losing them. I love 
having that marketplace out there for that talent, and school 
districts are going to have to understand that it is no 
longer----
    Ms. Yancy. They have to get competitive.
    Chairman Miller [continuing]. A closed market, and I think 
all of that will be helpful.
    My concern is that they are exposed to a curriculum and to 
experiences that make them ready in that classroom so that they 
can utilize all of the benefits of technology, the ability of 
students to work across state lines, across districts, across 
the country--to give their students a depth of education and a 
different kind of education to make them ready for that 
workplace in 2020, 2024.
    That is my concern, and that is why I am excited to see 
that your students from day 1 are exposed to that and start to 
understand what that means, because you can still graduate from 
the School of Education and not have any experience in 
technology. It is unbelievable that that is the case in this 
country, but that is. You can still graduate and not have any 
understanding of IDEA, you know, in this country, when people 
are dealing with special education.
    Ms. Yancy. Representative Miller, I come from the old 
school----
    Chairman Miller. I am not putting this burden on you. I am 
just saying I am excited----
    Ms. Yancy. No, I come from the old school called truth in 
lending.
    Chairman Miller [continuing]. Because of the contribution--
--
    Ms. Yancy. Truth in lending. If you say you are going to 
promise the students a quality, competitive education, then you 
have a requirement to do it. What we have here is a shortage of 
funds and many of our----
    Chairman Miller. I understand that. I understand that very 
well. And let me just say this: I was meeting with a group of 
Upward Bound students yesterday, and I think it is very 
important that we establish--and your institutions establish--a 
working understanding of the new arrangements in financing of 
their education. There are now opportunities available to them 
that were not before.
    You mentioned starting at a low salary. Under the income 
contingent loan repayment program, they do not have to pay more 
than 15 percent of their discretionary income in any one year. 
For those high-performing math and science teachers, they can 
get $4,000 assistance while they are in school if they will 
teach afterwards. If they enter public service, if they enter 
the non-profit world, if they want to become a prosecutor or 
public health doctor or public defender or fireman, after 10 
years, their loans go away. And we are also trying to 
coordinate within that loan to make sure that they understand 
all of the access that they have to the federal loan program 
before they take on a private loan.
    Too often, private lending is directly marketed to the 
student. The student takes advantage of it and then realizes 
that they have a headache on this one when they still had 
capacity within the federal program. So we have really tried to 
redesign this, but it is different from what a lot of people 
assume, which leads them to the conclusion they cannot continue 
their education, and it is not the case in many instances.
    Ms. Yancy. Yes, I am not disagreeing with you, 
Representative Miller. I guess what I am really saying is many 
of our students are first-generation students. It is not that 
they have been told, it is not that they have been tutored and 
exposed to the possibilities of loans and what happens to their 
loans and how they go away. When you are first generation and 
you graduate from college--I was in graduate school, I was 
first generation in my family. My sisters had gone to college. 
My father's position was, ``Why are you staying to get a Ph.D. 
You need to get out and get a job.''
    When these kids reach the point of graduation and there is 
someone waving $60,000, $70,000 in their face versus the other, 
it sort of hurts your heart to see them decide they are not 
going to be teachers at that point, and that is all I am really 
trying to say.
    And the same thing is true about them going on to get 
Ph.Ds. There is someone waving something in their face, 
particularly those in computer science. We are number one in 
the Carolinas in the production of African-Americans in 
computer science and computer engineering. I have to just pull 
hen's teeth to get them to go on to graduate school, and that 
is all I am really trying to say.
    Chairman Miller. All right.
    Mr. McKeon?
    Mr. McKeon. Thank you, Mr. Chairman.
    I love these hearings on education. They always bring up 
more problems than solutions, but it really makes you think 
about how far we have come, but how far we need to go.
    I hear discussions about competition between the schools 
where we really need to pull together and understand that the 
competitions should not be between the schools or the classes 
of schools or the kinds of schools we have--proprietary 
schools, black colleges, traditional schools--our competition 
is China, India, other places around the world, and if we do 
not prepare, as the chairman said, our diverse workforce to 
handle all the diverse needs, I do not think our children and 
grandchildren are going to have the kind of lives that we have 
had. So we have tremendous challenges before us.
    Talking about teacher pay, I served on a local school board 
for 9 years, and we lost--we had a couple of our best math-
science teachers in the district, and they left to go to work 
for industry. They tried to stay as long as they could. 
Finally, it got too much and they could not afford to stay. 
That is a problem. However, we also have teachers that are 
overpaid.
    The way this system works, all teachers are paid the same 
when they are hired, and after a couple of years, some of them 
have shown that they are much better teachers than others, but 
they are still paid the same because steps and columns--the way 
it works--I know that the chairman in the reauthorization of 
higher education has tried to work on differential pay and some 
other things like all other industries have, but in teaching, 
everybody is the same, and I think that causes real problems.
    Dr. Yancy, you talked about the problems with loans and 
getting loans, and I am really concerned that we are heading 
for a major problem, that the things that have hit the housing 
industry are coming also to the student loan industry, whether 
it be the government program, the private financing. The 
problem with getting capital is going to cause some real 
problems.
    I do not know--I would like you to all address that--if you 
are hearing from lending companies the problem of getting loans 
for the students for this coming summer and fall and what you 
are seeing in that area.
    And, Mr. Pierce, the point that you brought out on the fact 
that we are not enforcing laws, I think that is a national 
problem, not just in civil rights, but in other areas, 
selectively enforcing laws. My constituents are very concerned 
about illegal immigration. You know, it looks like some laws we 
enforce, some we do not. You run a stoplight, you get a ticket. 
If you are here in the country illegally, we look the other 
way, you know, and that really concerns me.
    I would like you to address, if you could, the problems 
that you faced with your time in the department in trying to 
get civil rights laws enforced, and you talked about how you 
have seen that fall off since you left the office.
    Mr. Pierce. Congressman, at the time, we actually, for the 
most part, in totality realized a great deal of cooperation 
from the states. Now there were some states at that time that 
were very recalcitrant. Ohio was definitely one of them. But, 
for the most part, the remaining states worked with us.
    It was Secretary Richard Riley was Secretary of Education 
at that time. It was his desire that we work in partnership 
with the states to pull together compliance plans that were 
bringing these states in compliance with federal law, and we 
did just that.
    However, it did not take long when we left for states to 
begin to retreat from not only those agreements, but stated 
federal higher education desegregation policy that states 
clearly that certain initiatives and policies by states in the 
world of higher education would have an adverse impact on the 
desegregation process in higher education, one of which was 
the--seems to be--it is federal policy and that is the 
unnecessary duplication of educational programs.
    Now we know that in the days of apartheid and segregation, 
to have a school of journalism at Florida State University, a 
traditionally white institution, right across the street from 
Florida A&M, a traditionally black institution, was the way 
life was to keep the races apart. If you were black and you 
wanted to get a degree in journalism, you have to go to Florida 
A&M. If you are white, you go to Florida State. That is just 
the way it was.
    Part of the federal policy was to remove those policies--it 
is like racial steering in real estate--and say, ``Look at what 
your state needs in terms of higher education, whether it is 
more law enforcement officers, environmentalists, scientists, 
and biotechnologists, whatever, and then use that to craft 
educational offerings in the state system of public higher 
education commensurate with those demands.'' So you would not 
duplicate programs unnecessarily that would only continue 
segregation.
    So to place a school of pharmacy, so to say, at Texas 
Southern University which would attract a more diverse student 
population or the school of physical therapy at Langston 
University in Oklahoma--I gave the commencement speech there. I 
would say 30 percent of the graduates of that class in physical 
therapy were white students. Why? Because of the quality of the 
program there was attracting students.
    But now you have a retreat from that. I think Dr. 
Richardson can attest to this. Part of the deseg plan was to 
place, I believe, a doctoral degree in education at Morgan 
State University. Now you clearly see after, you know, the 
sheriff left town, as you see other colleges in the state 
system of higher education in Maryland, encroaching upon that 
degree right down the road from his university. And that goes 
on and on and on. Land grabs. Money that was committed to 
historically black colleges and universities has been removed.
    So, yes, yes, I mean, it is a clear difference, but it was 
the same thing during the Reagan-Bush years that preceded us. 
There had been a lull in the enforcement of the higher 
education desegregation--not as much because, interestingly, 
Clarence Thomas, when he ran the Office of Civil Rights, he was 
the person that found three of those states in violation of 
federal civil rights laws, and one of them sued the Department 
of Justice in litigation.
    I believe if Clarence Thomas can see that, you know, 
anybody should be able to see that. So, you know, no disrespect 
to the Justice, but, clearly, there has been a difference in 
how federal civil rights law has been enforced from the years 
1993 to 2000 and 2000 to now.
    Mr. Richardson. Congressman, if I might add just for the 
record, a correction on the record, we actually have the 
doctoral in education program. The doctoral programs that came 
as a result of the efforts under Dean Pierce here were doctoral 
programs in history, engineering, math, and science education.
    The program, of course, that we most recently have been 
talking about is the MBA program that was just duplicated about 
a year and a half ago, and that was a continuation of the 
duplication that we think is very harmful not only in terms of 
efficiency, but also in terms of the diversity issue, which it 
was intended to address from the beginning.
    Mr. Kildee [presiding]. Thank you, Mr. McKeon.
    Secretary O'Leary, in your testimony, you mentioned that if 
you can admit and support a student in his or her first year, 
then there is an 86 percent chance you will be able to retain 
them the second year, and your graduation rate is about----
    Ms. O'Leary. Sixty-five percent.
    Mr. Kildee. Which is higher than the national----
    Ms. O'Leary. Well, it is 10 percent higher than the average 
in the United States of America. That is correct.
    Mr. Kildee. What strategies do you use to achieve that 
success?
    Ms. O'Leary. Well, there are actually three that I am going 
to talk about them and two-pronged.
    The first one is the finances. You have really got to work 
with these students, 91 percent of whom at Fisk are on 
financial aid. And earlier Chairman Miller asked the question 
with respect to third-party loans. Well, at Fisk, we are 
working with one of our major banks in Tennessee to ensure that 
there is a backup available for our kids if other financing 
runs out.
    The other piece of it, to move to the advisement side, has 
to do with the size of Fisk University. Our student-to-faculty 
ratio is 12:1. So, like it or not, you cannot get into too much 
trouble academically or socially. I would say I know easily 30 
percent of our kids by name, by degree program.
    The other thing that occurs in such an intimate surrounding 
is that the advisement of these students is unique and 
personal, and it moves beyond the adviser for the degree 
program. We also have a series of advisers whose responsibility 
it is to look after our students and intervene at least by mid-
semester if there is a problem with academics.
    So we pretty much have them locked on our 42-acre campus, 
and we give them that kind of attention.
    Mr. Kildee. That is a remarkable record.
    Ms. O'Leary. Thank you.
    Mr. Kildee. It is not cheap to do that, but it certainly 
has produced a high degree of success.
    Ms. O'Leary. Indeed, it is not cheap, as our endowment will 
attest. Well, before I arrived, others saw these needs for our 
students and unwisely dipped into endowment to support these 
initiatives, and now we are working to find money outside of 
those needs to put that endowment back.
    But we are very proud of our record. Thank you.
    Mr. Kildee. Mr. Pierce, what is the purpose of the 
partnership agreements between the states and the OCR? Is it a 
settlement in lieu of a lawsuit?
    Mr. Pierce. Exactly. Congressman, of the original 19 states 
that were involved in federal litigation or investigation, all 
of them except for five were able to present plans to resolve 
their violations. Five of them had to go to court, again one of 
them all the way to the Supreme Court--that was Mississippi--
and our Department of Justice prosecuted those cases.
    All the remaining states said, ``Okay, Department of 
Education, Office of Civil Rights, we will sign a document 
saying we will commit to do the following over a certain period 
of time, which, hopefully, at the end of that implementation 
period, you will find us in compliance.'' That was what those 
plans were designed to do, to bring the states in compliance 
with federal education policy by removing the vestiges of that 
practice of segregation that continued having effects to today.
    Mr. Kildee. After the partnership agreement expires, is 
there expiration data----
    Mr. Pierce. Yes, sir. Most of those plans are maybe 4 or 
some 5 years.
    Mr. Kildee. And what do you do then? Does the state's 
obligation end at that point and you renegotiate it or----
    Mr. Pierce. No, the obligation does not end. The obligation 
is on the Department of Education's Office of Civil Rights to 
then conduct an analysis to determine whether or not what the 
states committed to do actually had the effect of addressing 
the violations to the point that they could be removed. In many 
cases, those plans expired and the states were informed by the 
Department of Education, ``Continue doing what you are doing, 
and we will get to you and ultimately make an analysis as to 
whether or not you are in compliance.''
    Unfortunately, that has not happened. All the plans that I 
negotiated, Congressman, have expired, and those states are 
still under continuing obligations to implement those plans to 
the letter and to the spirit.
    Mr. Kildee. All right. Thank you very much for that 
information.
    And I appreciate the work you did during your time there 
with the department. I recall those years, and we talked a few 
times at that time.
    Mr. Pierce. Yes, sir. I remember being in your office.
    Mr. Kildee. I remember that very much.
    We have a vote on in the House, but I think we have time to 
get Mr. Keller from Florida in to ask a question. Then I think 
I will all run over to the House and cast my vote and get back 
here as soon as I can.
    Mr. Keller?
    Mr. Keller. Well, thank you, Mr. Chairman.
    I want to thank all our witnesses for being here today.
    I am looking at your book here, and the very first topic 
says, ``Expanding Access to College,'' and that is the topic I 
want to touch upon. I am chairman of the Pell Grant Caucus here 
in Congress and a big fan of Pell grants. I myself would not 
have been able to go to college without Pell grants.
    When you look at the demographics, about 80 percent of Pell 
grants go to minority students. Now here is the challenge. 
Ninety percent of the students getting Pell grants come from 
families making $40,000 or less, and the biggest problem that 
has raised for me is that parents will come to me and say, 
``Well, I am a firefighter. My wife is a teacher. Together, we 
make about $70,000. We are too rich for Pell grants, but not 
rich enough to pay for our kids to school, and we have two 
little girls in high school,'' and there is a very limited 
amount of tax incentive that will help them, HOPE tax credit, a 
small deduction if you are under a certain amount.
    What would you give us as advice to remedy that situation 
for the people who need the help to help access college, but 
they are just over the Pell grant limits to open the doors for 
your universities?
    Dr. Richardson, have you guys talked about that?
    Mr. Richardson. Okay. Congressman, I think that the 
financial aid issue is perhaps the most vexing issue for our 
historically black colleges and is very much associated with 
the retention and graduation rates. If you were to look at most 
of our institutions, you are going to find just that statistic 
that you just mentioned, about 90 percent on student financial 
aid, and what we have tried to urge is, yes, increasing the 
Pell grants because that is the first line of defense for most 
of our students.
    But the second is to provide additional dollars through 
other kinds of assistanceships and research assistants and all 
kinds of ways when we get the grant monies and all of those 
things through the federal structure. We have also tried to 
give back more money from our own institutions. You are going 
to find in most instances that our institutions heavily 
subsidize our students.
    Mr. Keller. Including the students who are not eligible for 
Pell grants because their parents make a little bit too much, 
yet they still do not have enough money to go?
    Mr. Richardson. Yes, absolutely. We understand that 
dynamic.
    Sometimes when you are talking to those who are the 
policymakers, they do not always understand that. They think 
that because the parents make $75,000, then there should be 
enough money. But, yes, there is that threshold there that will 
make the difference between whether or not a student 
matriculates or does not matriculate, and oftentimes, the 
institution has to try to find money.
    Now, when the institution provides those dollars, you are 
taking from the same pool of students from which you must hire 
your faculty, build your technology infrastructure, and all of 
those kinds of things. You will also note that our institutions 
on average charge far less. If you were to look at my 
institution and compare it to its Carnegie counterparts in the 
state, our majority institutions who offer doctoral research, I 
am about $2,000 less on tuition. That means I automatically 
forfeit every year $8.5 million. Then I come back and I 
subsidize those students further with institutional aid.
    Mr. Keller. And it depends on what your endowment is, too. 
I know like Harvard has a $36 billion endowment, so it is easy 
for them to----
    Mr. Richardson. No, we do not have those kinds of 
endowments.
    Mr. Keller. You do not have that. [Laughter.]
    I was telling the Harvard people--I was this close to going 
to Harvard, that was how thick my rejection letter was, and----
    [Laughter.]
    But, Dr. Yancy----
    Ms. Yancy. Congressman Keller?
    Mr. Keller. Yes.
    Ms. Yancy. When you make a certain amount of money, which 
is not enough money to send your kid to college, you are sort 
of caught in a never never land----
    Mr. Keller. Right.
    Ms. Yancy [continuing]. And that is when we get down to the 
loans that parents and students engage in, which means that 
they have a tremendous burden when they leave college.
    At my institution, we spend a lot of time trying to raise 
money for scholarships, and we have a few, but if you fall 
under a 3.0, you are in a never land again. So, from 2.0 to 
3.0, there is--no one wants to give you money for a kid who is 
``not on the honor roll.'' So that becomes another problem.
    So you have to provide jobs. You have to help them find 
jobs, or you have to get grants from MARC, NBRS, all kinds of 
research grants where you can aid students in those kinds of 
things, but there is just very little money for that group that 
is in between. They are sort of the betwixt and between group, 
sort of like the preteen that you cannot find clothes for.
    Mr. Keller. Right. Well, thank you.
    Mr. Kildee. At this point, we will take a brief recess. We 
are tight on the time for the votes now, but Mr. Andrews is on 
his way back, and he will take the chair, and I will be on my 
way back. It is one of those days we are trying to finish the 
session up. We apologize for these interruptions.
    Your testimony has been great. Stick right there. We will 
be right back.
    [Recess.]
    Mr. Yarmuth [presiding]. We will call the hearing back to 
order. I guess it is my turn for questioning.
    Dr. Sias, once again, welcome. It is a great privilege to 
have you here representing the Commonwealth of Kentucky and 
Kentucky State University.
    You mentioned that while HBCUs account for only 3 percent 
of the nation's colleges and universities that you account for 
30 percent of the baccalaureate degrees and 40 percent of all 
first professional degrees awarded African-Americans. What 
strategies are HBCUs using and maybe Kentucky State 
specifically to account for this disproportionate degree of 
success?
    Ms. Sias. I think when you heard Dr. Yancy talk earlier and 
actually Dr. O'Leary as well, they talked about the personal 
knowledge you have of your students, knowing who they are. I, 
too, know most of the students on my campus. If not by name, I 
know their faces wherever I see them. If I see people who 
should be in class and they are not, I am going to say 
something about it.
    We have improved our advising department, and it is not 
just about faculty members' advice--that is their job--but we 
have hired professional advisers as well. We put in technology 
that the chairman had talked about earlier so students 
themselves can go online and put in their degree program and 
see where they should be. We have gone in and looked at our 
curriculum structure over that nine-semester period to see what 
our students should be taking, how are they taking it, are 
those courses being offered.
    And we have also done a few other things. We have a degree 
completer award at Kentucky State University. We recognized 
that a large number of our students were getting up to that 
last year and a half and they were not getting done because 
they were out of money. So we took some of our needs-based 
assistance and said, ``If you are out of money and you are 
within that 24 hours, we are going to help you get there,'' 
because, to be perfectly candid, it does a lot for us in terms 
of our funding formula, and we need to get those people out and 
in jobs.
    But I think a large part of it really relates to the 
personal care, understanding who the students are, paying 
attention to what they are doing, and monitoring those mid-term 
grades. If you see students have a problem, get them in. And we 
are even going to stop waiting until mid-term and really go to 
an electronic version of class attendance so we know when they 
are not going to class so we can get on them about not going to 
class as well.
    Mr. Yarmuth. There are also I know--oh, I am sorry, Dr. 
Yancy. Yes?
    Ms. Yancy. I was going to add at Johnson C. Smith, we 
initiated something called the freshman academy which is a 
learning community. We have placed all of our freshmen in 
learning communities when they arrive, and each of the learning 
communities have themes. We also have a sophomore initiative.
    But in order to do this, we had to expand our faculty from 
80-odd to 103. So our teacher-student ratio is 13:1, and we 
also have mentors who are staff who are assigned to each of the 
learning communities, and that has helped.
    Our retention has not changed significantly, but there is a 
difference in the performance of students. They are doing 
better in classes, and I think that this supportive and 
nurturing community that we say we provide, we are actually 
doing it.
    Ms. O'Leary. I would just like to add one thing, and that 
is that our historically black colleges and universities have a 
legacy of receiving kids whose parents or whose teachers 
understand that to change their lives they must be educated, 
and I do not think we have lost that in the student that shows 
up. They hunger for that degree, for an opportunity to really 
play in the game, both in the social, the economic, and even 
the political because we find our students so politically 
active. They come with that desire. We just have to heat it up 
a little bit.
    Mr. Yarmuth. Thank you.
    And, Dr. Sias, when we have talked, you have talked about 
the fact that we spend about 50 or 55 times more to provide 
access to our young people in colleges than we do to keep them 
in the college, and the program that you have initiated at 
Kentucky State, which actually helps kids who come up with 
maybe not the foundational skills, the study habits, the time 
management and so forth, which also is an important part of 
getting kids who are--I call them kids. I should not--but 
getting young people who are fully capable of doing the work, 
but need a little bit of that structure that they may have been 
missing.
    If you can elaborate a little bit on that because one of 
the pieces of legislation that we have in the Higher Education 
Act has actually evolved from the discussions that you and I 
had.
    Ms. Sias. Absolutely. We are talking about students with 
developmental education needs, and we have an academic bridge 
program. In Kentucky, 52 percent of all students who graduate, 
regardless of their color, graduate needing at least one course 
in remediation. For African-Americans, that number is 77 
percent.
    What we have done is establish an academic bridge program 
where we take those students with those developmental needs and 
we bring them in in the summer. Initially, we used their 
financial aid. The last 2 years, we have paid for it. It has 
increased the enrollment. It increases our retention.
    Out of the students we had last summer, 93 percent of those 
students were retained by the time we finished the end of that 
freshman year. You knock out the remediation, which means they 
start earning course credit immediately because not earning 
course credits really is a problem for them and they get 
depressed about what is happening to them. Having student 
mentors, peer mentors, getting the reading, the public 
speaking, all of those things out of the way----
    We are getting ready to move to the next stage, which is 
also really looking at using technology to help with that 
remediation, like you thinking about the learning communities, 
but what says that you have to wait for a student to get to 
your campus before you start remediating? Nothing really. I 
mean, I think it is that important that we get it out of the 
way early, and because we are up for reaffirmation, our QEC 
will look at that whole first-year experience, and ours is 
really focusing on a topic that is called Academics with 
Attitude that deals with this whole first-year experience and 
what we can do on every front to help those students.
    And you are right. It makes a tremendous difference having 
peer mentors and what I have seen is even more important. When 
students step up and they can relate to other students and they 
see them not doing what they should be doing, that makes a 
tremendous difference in our retention rate with those 
students.
    Thank you for asking the question. I appreciate it.
    Mr. Yarmuth. Thank you very much.
    Mr. Andrews?
    Mr. Andrews. Thank you, Mr. Chairman.
    Ladies and gentlemen, thank you for your testimony this 
morning. Thank you for the contribution your students and 
institutions are making to our country. It is terrific. We are 
glad that you are here.
    I am assuming that at institutions which have very high 
quality and very small endowments, which I think characterizes 
everybody here, a lot of the students need to have gap loans. 
They need to borrow money between what their financial aid 
package gives them and what they need to go to school. Is that 
a correct assumption?
    Ms. O'Leary. Oh, yes.
    Ms. Yancy. Yes.
    Ms. Sias. Yes.
    Mr. Andrews. Okay. I am following up on something the 
chairman asked about, Mr. McKeon asked about. Have you yet 
experienced any problems with lack of liquidity in getting 
loans for gap loans? Has that been a problem for any of the 
institutions here?
    Ms. O'Leary. With respect to Fisk, as I earlier said, it 
has not been, but we are aware that this tidal wave is coming.
    Mr. Andrews. Yes.
    Ms. O'Leary. And so we have already begun to work with one 
of our major local banks to secure an alternative approach.
    Mr. Andrews. How about the other institutions? Did you see 
a problem on the horizon, and if so, is there a way to deal 
with the needs of these students?
    Mr. Richardson. Mr. Chairman--or Congressman----
    Mr. Andrews. You can call me that, if you want to. 
[Laughter.]
    Mr. Richardson. I love promoting.
    Mr. Andrews. Mr. President, go ahead.
    Mr. Richardson. Let me simply say that it just compounds a 
problem that has existed for many, many years. Many of these 
students are not creditworthy--their parents.
    Mr. Andrews. Very few of them are.
    Mr. Richardson. Yes. Their parents are not creditworthy. So 
they do not have the option of borrowing in the same way that 
our more affluent students would have. So that is just the way 
it is.
    Mr. Andrews. Yes.
    Mr. Richardson. Now when you add on to that the way that 
the economy now is going and the impact of the mortgage lending 
and all of these other things with that, then that simply just 
compounds it. But I am not sure that we see the dramatic effect 
because ours is already at such a low ebb.
    Mr. Andrews. I just hope it does not get any worse because 
I know it would--if the rest of the academic community catches 
a cold, your students get pneumonia as far as I can tell.
    Now what I wanted to ask was: Does anybody here have 
experience with the Lender of Last Resort program? Have any of 
you used it for your students?
    Ms. Sias. We have a couple of students who----
    Mr. Andrews. Yes, ma'am.
    Ms. Sias [continuing]. Have actually used a program like 
that. Yes, sir.
    Mr. Andrews. Has it worked? Has it been easy to access? Is 
it something that works?
    Ms. Sias. First of all, the students really have to get the 
information about the program, and there is not enough 
information out there. They are also skeptical about what that 
means. And I would say probably 50-percent higher interest 
rates, and 50 percent of the people who go after it come back 
saying that they could not get----
    Mr. Andrews. Could not do it.
    Ahead of the facts, my prejudice here is I think the tidal 
wave is coming, and my own view is that without some kind of 
guarantee behind attracting the capital, we are going to 
attract the capital for these gap loans for your students, and 
although the Lender of Last Resort program works in theory, I 
do not know that it works in reality.
    Does anybody else have any experience with that?
    Ms. Yancy. Yes.
    Mr. Andrews. Yes, ma'am?
    Ms. Yancy. Another comment to make. I grew up in a union 
household, and you know you are the last hired and the first to 
be fired. In 2001, when everybody talked about the depression 
that came in the fall, it hit my campus in the spring. My 
students left owing over $1 million in tuition.
    Mr. Andrews. Right.
    Ms. Yancy. All right. Now this fall that we just had, 2007, 
we had large numbers of students who had to go back home 
because they could not get loans, they did not qualify for 
loans, et cetera, et cetera. So I do not know about the other 
people in this room, but we already know about the depression 
or whatever you want to call it----
    Mr. Andrews. Yes, ma'am.
    Ms. Yancy [continuing]. And I know it is going to get 
worse.
    Mr. Andrews. I see that my time is about to expire. We want 
to move on.
    I want to just ask you all one time. The committee is going 
to start to consider this issue very intensely in the next few 
days, and I know we are going to want to draw upon you and your 
associations for your expertise as we approach this. I hope 
that we are overreacting to a problem that does not come, but I 
think the problem is coming. It is already here for a lot of 
students. We want to help those who already have the problem 
and avoid it for those who do not.
    Thank you, Mr. Chairman.
    Mr. Richardson. Mr. Chairman, if I could make this one 
other comment in this regard----
    Mr. Yarmuth. Yes.
    Mr. Richardson [continuing]. To simply say to you--to use 
this opportunity to say--that we really prefer not having the 
loans, but to have increases in Pell grants and other kinds of 
assistance----
    Mr. Andrews. You bet. As do we.
    Mr. Richardson [continuing]. Because if we continue to go 
this way, then when students graduate, they are so burdened 
with----
    Mr. Andrews. Just to quickly editorialize, the Congress is 
going to make a decision in 2010 about what to do with the 
expiration of the Bush tax cut. Personally, not speaking for 
the committee, here is what I would do. The top 5 percent, 
which is people making over $300,000 a year, I would let them 
expire, and I would take the $1.5 trillion that would put back 
in the Treasury and make the Pell grant program really mean 
something in addition to other things. So that is what I would 
do, and I think that is the direction----
    [Applause.]
    Mr. Yarmuth. Thank you, Mr. Andrews.
    At this time, I would like to recognize Dr. Julianne 
Malveaux, president of Bennett College and noted syndicated 
columnist, and like Chairman Miller and Ranking Member McKeon 
of California, we welcome her in the audience as well.
    At this point, I want to thank all the witnesses for their 
testimony. This has been a very interesting hearing, and as 
Congressman Andrews mentioned, we will be pursuing these 
subjects with great intensity.
    Without objection, members will have 14 days to submit 
additional materials or questions for the hearing record.
    Without objection, the hearing is adjourned.
    [The statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman, for holding this important hearing on 
Historically Black Colleges and Universities (HBCUs).
    Throughout their history, HBCUs have played a critical role in 
providing high-quality post-secondary education to African Americans in 
the United States. For many years after the abolition of slavery HBCUs 
were the only institutions of higher education where African American 
students could receive an education. Today, HBCUs still play a critical 
role in educating African Americans. While they represent just 3 
percent of all colleges and universities, HBCUs enroll 30 percent of 
African American students in the United States. In addition, HBCUs 
educate 50 percent of all African Americans that become teachers.
    HBCUs' role in educating our nation's African American teachers is 
of particular importance to me. While 17 percent of public school 
students are African Americans, only 6 percent of public school 
teachers are African Americans. To address this disparity I introduced 
the Improving Teacher Diversity Act (HR 4045). This legislation will 
provide grants to schools of education at minority serving 
institutions, such as HBCUs, to help recruit and prepare teachers. 
Specifically, the grants could be used to award scholarships to 
students in teacher preparation programs, develop initiatives to retain 
highly qualified teachers and principals, provide faculty with 
professional development, and provide mentoring programs for 
prospective teachers.
    I would like to thank Chairman Miller for including the Improving 
Teacher Diversity Act in the College Opportunity and Affordability Act 
(HR 4137), which was passed by the House on February 7. I am hopeful 
that it will be maintained in conference with the Senate's Higher 
Education Act reauthorization bill.
    Thank you again, Mr. Chairman, for holding this hearing and for 
your leadership on issues affecting HBCUs.
                                 ______
                                 
    [Questions submitted to witnesses and their responses 
follow:]

                  Committee on Education and Labor,
                             U.S. House of Representatives,
                                    Washington, DC, March 13, 2008.
[VIA FACIMILE TRANSMISSION]

Dr. Earl S. Richardson,
Morgan State University, Cold Spring Lane and Hillen Road, Baltimore, 
        MD.
    Dear Dr. Richardson: Thank you for testifying at the March 13, 2008 
hearing of the Committee on Education and Labor on ``America's Black 
Colleges and Universities: Models of Excellence and Challenges for the 
Future.''
    Representative Ruben Hinojosa (D-TX), chairman of the Subcommittee 
on Higher Education, Lifelong Learning and Competitiveness and member 
of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
question:
    States have been fighting the limited maintenance of effort 
requirement that we have included on our reauthorization bill. In your 
testimony, you highlight that states have yet to meet their obligation 
to provide equity. In Texas, it took a lawsuit to get more equitable 
funding for our colleges and universities in the border region--all of 
which are Hispanic-Serving Institutions. In response to the lawsuit, we 
saw some improvements. But, now, it seems we are back to the days of 
growing inequity in funding. What should the federal government do to 
ensure that states maintain their investment in higher education and 
provide equity for institutions that serve low-income, first 
generation, and minority students?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Wednesday, 
March 26, 2008--the date on which the hearing record will close. If you 
have any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

    Responses to Questions for the Record Supplied by Dr. Richardson

    Representative Ruben Hinojosa (D-TX), chairman of the Subcommittee 
on Higher Education, Lifelong Learning and Competitiveness and member 
of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
question:

    Question: States have been fighting the limited maintenance of 
effort requirement that we have included on our reauthorization bill. 
In your testimony, you highlight that states have yet to meet their 
obligation to provide equity. In Texas, it took a lawsuit to get more 
equitable funding for our colleges and universities in the border 
region--all of which are Hispanic-Serving Institutions. In response to 
the lawsuit, we saw some improvements. But, now, it seems we are back 
to the days of growing inequity in funding. What should the federal 
government do to ensure that states maintain their investment in higher 
education and provide equity for institutions that serve low-income, 
first generation, and minority students?
The access imperative
    Despite the nation's imperative to provide educational access to 
all its citizens, in many states there remains great disparities in the 
completion of degrees between minority person and whites. In order to 
close the access gap, the federal and state governments need to develop 
effective strategies to increase the number of minority graduates. 
Since minority-serving institutions have done the lion's share of the 
work in providing access and reducing the access disparities, the 
answer to closing the gap lies in enhancing the investment in the 
institutions that know access best.
    If national and state leaders do not urgently seize the opportunity 
to close the educational access gap, the demographics suggest that an 
already daunting problem will worsen. The nation's demographics, at 
least over the next decade, will increasingly favor the traditional 
clientele of minority-serving colleges--minority students, economically 
disadvantaged students and those students who may not be as 
academically well-prepared. For example, Maryland's general population 
is now 29% African-American, the fourth highest of any state. The 
Hispanic population, while smaller than the black population, is 
younger and growing more rapidly. The white population is at best 
stable and probably declining. Additionally, Maryland's public schools 
statewide are now nearly half minority, with African Americans 
accounting for about 40% of public school enrollments. Within five 
years, the number of black and Hispanic public high school graduates 
combined will be about equal to the number of white graduates. For more 
than a century, Maryland's historically black institutions have 
successfully served this clientele.
Capitalizing on the expertise of minority-serving institutions in 
        providing access
    Decades of practice in providing access to students not eligible 
for admission to other State institutions has made historically 
minority-serving institutions experts on access. Investing in the 
institutions that know how to provide access will promote the 
achievement of important goals in higher education: quality, access, 
diversity of quality educational opportunities, adequate funding, 
efficient and effective management, and capable and creative 
leadership. Indeed, efficient and effective management of our systems 
of higher education demands that adequate funding be targeted to 
institutions with a history of success in addressing what should be the 
nation's priority of providing increased access to minority and 
disadvantaged students.
Strategies for providing equitable resources to predominantly minority-
        serving institutions
    As Representative Hinojosa points out, historical funding 
inequities between minority-serving institutions and majority serving 
institutions remain present today. Any efforts by the federal 
government to eliminate those funding inequities will contribute to 
closing the educational access gap. The following strategies are 
suggested:
    <bullet> Enforce federal civil rights laws vigorously
    During the hearings on March 13, 2008, hearing of the Committee on 
Education and Labor, Dean Raymond Pearce discussed his concerns 
regarding the enforcement efforts of the U.S. Department of Education, 
Office of Civil Rights in this area. If the federal government would 
enforce the laws which provide for equal opportunity to quality 
educations for all, we could see prompt improvement on the quality of 
higher education and narrowing of the access gap.
    The failure to effectively enforce federal civil rights legislation 
has seriously eroded state compliance with federal civil rights laws. 
For example, contrary to federal law, states have failed to enhance 
historically black institutions to make them comparable and competitive 
with traditionally white institutions. Were states to comply with the 
law, differences in schools based on the racial composition of their 
student populations would stop. This would cause students of all races 
to select state schools based on their program offerings, facilities 
and other non-race based qualities. As long as minority-serving 
institutions are resourced inequitably and prevented from effectively 
competing with their white counterparts, students of all races are 
likely to be more attracted to institutions with greater resources, the 
racial segregation of state institutions will continue and minority-
serving institutions (which provide access to students who would not 
otherwise have educational opportunities) will not be able to serve 
increasingly higher numbers of minorities and low income students.
    In the 2008 legislative session, the Maryland legislative black 
caucus introduced legislation to provide supplemental funding 
assistance to historically black institutions to support efforts to 
achieve comparability between minority-serving institutions and other 
public four-year postsecondary institutions in all respects. They 
recognized the needs for this supplemental funding because they were 
mindful of: the unfortunate need of historically black institutions to 
divert limited and precious operating resources to capital purposes 
(such as leasing space) necessitated by the state's failure to fund 
capital needs of HBIs to make them competitive with TWIs and the States 
misplaced emphasis on institutional ambitions (of TWIs to expand their 
program inventories, for example) versus state needs and priorities 
(desegregation and enhancement of HBIs). The supplemental funding was 
targeted for the: (1) establishment of honors colleges or the expansion 
and enrichment of other honors program configurations; (2) the 
development or enhancement of student scholars financial assistance; 
(3) the development of a faculty scholars program ; (4) the improvement 
of academic program quality initiatives, and (5) the expediting of 
capital improvements at minority -serving campuses over the next 
decade.
    <bullet> Develop Federal Government Incentives to Promote State 
funding formulas that control for the nuances of funding minority-
serving institutional missions
    Provide incentives to states that develop funding formulas that 
control for the nuances of funding minority-serving institutional 
missions and that consider the high cost components of minority-serving 
institutional missions that are critical to providing access to the 
student populations they serve. First and foremost, 85% or more of the 
students at minority-serving institution need financial aid. While at 
majority institutions, student enrollment and tuition is a revenue 
source, at minority-serving institutions, student enrollment must be 
combined with financial assistance or the students cannot attend 
because they cannot pay, resulting in a cost center for the 
institution, not a revenue source. The vast majority of students at 
minority-serving institutions simply cannot afford the full cost of 
tuition and their access to higher education is possible only when they 
receive financial assistance. Minority-serving institutions provide 
that assistance in two ways. Their tuition ranges from 17-53% less per 
student than at the predominantly majority-serving institutions. This 
equates to an annual forfeiture of millions of dollars in revenue 
depending on the institution, for which there is no subsidy. Second, 
even with these lower tuition rates, minority-serving institutions must 
still subsidize students through financial aid at much higher rates 
than majority-serving institutions. Third, since minority-serving 
institution facilities have not been developed consistent with the 
program and research needs of the campuses, large sums of operating 
dollars that would ordinarily support additional faculty, information 
technology, equipment, etc., is used to address temporary capital needs 
(facilities and other infrastructure projects) which often require 
enormous funds for utilities.
    The failure of most state funding formulas to consider these 
nuances in funding minority-serving institutional missions causes 
enormous disadvantages in their ability to compete with majority-
serving institutions since majority-serving institutions are able to 
use their tuition revenues and operating funds in furtherance of their 
missions. The inadequacies of state funding models are known to those 
expert in the field. For example, the Commission to Develop the 
Maryland Model for Funding Higher Education recently heard from a panel 
of expert consultants, who provided their insight into challenges 
facing Maryland's higher education funding. They asserted the 
following: (1) current funding models in many states are driven by 
institutional aspirations and ambitions rather than State needs and 
priorities, and (2) current funding models are oftentimes skewed to 
favor larger universities over smaller universities which provide 
greater access for minorities and low income students.
    <bullet> Increase Federal Support for undergraduate and graduate 
programs and research at Historically Black and predominantly minority-
serving institutions
    Increased funding in these areas will improve the ability of 
minority-serving institutions to compete with predominantly majority 
serving institutions.
    <bullet> Increase PELL grants
    This concern was discussed a great length during the hearing.
Conclusion
    The economic growth and vitality for the nation is dependent upon 
providing educational opportunities to its citizens. Minority-serving 
institutions have developed an expertise in providing access to the 
precise cohort of students that represent the largest growing 
demographic segment of students in the nation, a number that is 
expected to continue to rise through the next decade and beyond. The 
nation's economic vitality, educational access to these students, and 
the expertise of minority-serving institutions in providing them access 
are inextricably linked. By necessity, the minority-serving 
institutions ought to be developed to a level of comparability and 
competitiveness with the other public institutions so they can take 
their rightful place in fulfilling the nations' needs. The benefits of 
funding minority-serving institutions at a level of comparability and 
competitiveness to their peers is enormous. Consider the successes that 
are certain: a more highly educated population able to earn higher 
salaries, increased tax revenues derived from a population having a 
higher earning capacity, increased talent and creativity in the 
workplace that contributes to the economic growth and vitality of our 
states and the nation which translates into a better quality of life 
for all.
    Consider the consequences of our failure to provide higher levels 
of access to minority student in the State of Maryland. It costs 
Maryland $9,600 per year to educate a student at an historically black 
college. It costs the State a lifetime of forgone income for an 
individual who has not developed their talents through education. Based 
on data from the Center for Labor Market Studies of Northeastern 
University, it costs Maryland about $26,000 per year to incarcerate a 
young person; this figure does not include costs associated with parole 
and probation nor does it include social service costs to support 
families of the incarcerated or the costs of social services to support 
families that are economically disadvantaged. And * * * what is the 
price of crime to our community, to our economy and to the often 
devastated victims and their families?
    The nation's minority-serving institutions have the unique ability 
to remedy the ills of our society. Higher education must develop a 
unitary system of complementary, and comparable colleges and 
universities which are equally attractive to students regardless of 
race or socioeconomic background; and for ultimately closing the 
college education attainment gap for African Americans, other 
minorities and low income high school graduates.
                                 ______
                                 
                  Committee on Education and Labor,
                             U.S. House of Representatives,
                                    Washington, DC, March 13, 2008.
[VIA FACIMILE TRANSMISSION]

Dr. Dorothy Cowser Yancy,
Johnson C. Smith University, 100 Beatties Ford Road, Charlotte, NC.
    Dear Dr. Yancy: Thank you for testifying at the March 13, 2008 
hearing of the Committee on Education and Labor on ``America's Black 
Colleges and Universities: Models of Excellence and Challenges for the 
Future.''
    Representative Ruben Hinojosa (D-TX), chairman of the Subcommittee 
on Higher Education, Lifelong Learning and Competitiveness and member 
of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
question:
    There is a tremendous need for financial literacy for low-income 
and first-generation college students and their families. Many of our 
college students lack a basic understanding of consumer economics and 
personal finance. They do not understand the ins and outs of financial 
aid. In our College Opportunity and Affordability Act, we have placed 
an emphasis across programs on financial literacy. We have also called 
upon all stakeholders in the student loan programs to step up their 
efforts on this issue. What are the financial literacy needs on your 
campus? How are you addressing them? What are the challenges?
    Please send an electronic version of your written response to the 
questions to Margaret Young of the Committee staff by close of business 
on Wednesday, March 26, 2008--the date on which the hearing record will 
close. If you have any questions, please do not hesitate to contact the 
Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
    [Whereupon, at 12:05 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
